<html>
<title> - FISCAL YEAR 2019 NUCLEAR REGULATORY COMMISSION BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






         FISCAL YEAR 2019 NUCLEAR REGULATORY COMMISSION BUDGET

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                AND THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2018

                               __________

                           Serial No. 115-111




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-623 PDF                WASHINGTON : 2018                 

































                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                  (ii)


                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
                                 ------                                

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
MARSHA BLACKBURN, Tennessee          SCOTT H. PETERS, California
GREGG HARPER, Mississippi            GENE GREEN, Texas
PETE OLSON, Texas                    DIANA DeGETTE, Colorado
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
BILL FLORES, Texas                   TONY CARDENAS, California
RICHARD HUDSON, North Carolina       DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota           DORIS O. MATSUI, California
TIM WALBERG, Michigan                FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................    10
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    64

                               Witnesses

Kristine Svinicki, Chairman, Nuclear Regulatory Commission.......    11
    Prepared statement \1\.......................................    13
    Answers to submitted questions \2\...........................    65
Jeff Baran, Commissioner, Nuclear Regulatory Commission \1\......    27
Stephen Burns, Commissioner, Nuclear Regulatory Commission \1\...    28
    Answers to submitted questions \2\...........................    65

----------
\1\ Ms. Svinicki submitted a written statement on behalf of the 
  Nuclear Regulatory Commission. Mr. Baran and Mr. Burns did not 
  submitted separate written statements.
\2\ The Nuclear Regulatory Commission submitted one set of 
  responses to questions for the record that were sent to Ms. 
  Svinicki and Mr. Burns.

 
         FISCAL YEAR 2019 NUCLEAR REGULATORY COMMISSION BUDGET

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                  House of Representatives,
                             Subcommittee on Energy
                             joint with the
                       Subcommittee on Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:17 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the Subcommittee on Environment) presiding.
    Members present: Representatives Upton, McKinley, Olson, 
Barton, Blackburn, Latta, Kinzinger, Johnson, Long, Bucshon, 
Flores, Mullin, Hudson, Walberg, Carter, Duncan, Walden (ex 
officio), Tonko, Green, Doyle, Matsui, McNerney, Welch, 
Loebsack, Schrader, Kennedy, Cardenas, Peters, and Pallone (ex 
officio).
    Staff present: Samantha Bopp, Staff Assistant; Daniel 
Butler, Staff Assistant; Kelly Collins, Legislative Clerk, 
Energy/Environment; Wyatt Ellertson, Professional Staff Member, 
Energy/Environment; Jordan Haverly, Policy Coordinator, 
Environment; Ben Lieberman, Senior Counsel, Energy; Mary 
Martin, Chief Counsel, Energy/Environment; Brandon Mooney, 
Deputy Chief Counsel, Energy; Mark Ratner, Policy Coordinator; 
Annelise Rickert, Counsel, Energy; Dan Schneider, Press 
Secretary; Peter Spencer, Senior Professional Staff Member, 
Energy; Jason Stanek, Senior Counsel, Energy; Austin 
Stonebraker, Press Assistant; Madeline Vey, Policy Coordinator, 
Digital Commerce and Consumer Protection; Hamlin Wade, Special 
Advisor for External Affairs; Everett Winnick, Director of 
Information Technology; Andy Zach, Senior Professional Staff 
Member, Environment; Priscilla Barbour, Minority Energy Fellow; 
Jean Fruci, Minority Policy Advisor, Energy and Environment; 
Tiffany Guarascio, Minority Deputy Staff Director and Chief 
Health Advisor; Caitlin Haberman, Minority Professional Staff 
Member; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; John Marshall, Minority 
Policy Coordinator; Alexander Ratner, Minority Policy Analyst; 
and C.J. Young, Minority Press Secretary.
    Mr. Shimkus. Let's call this hearing to order, and I will 
recognize myself 5 minutes, when I find it. It's hidden in the 
back. Recognize myself 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Welcome to our hearing this morning as we examine the 
Nuclear Regulatory Commission's fiscal year 2019 budget 
proposal. The NRC's essential role in licensing and regulating 
nuclear facilities is of great importance to my Illinois 
constituents.
    Illinois produces the largest share of nuclear-generated 
electricity in the country. Throughout the State, the 
commercial nuclear energy industry supports thousands of high-
paying jobs, funds local school districts, and provides 
reliable, clean, baseload electricity around the clock.
    In fact, a little over 75 years ago, Illinois was the site, 
at a lab under the University of Chicago's football field, 
where physicists and engineers first generated a self-
sustaining nuclear chain reaction. We are proud to be the 
birthplace of nuclear technology.
    While I do not have any commercial nuclear power plants in 
my southern Illinois district, I do represent the Nation's only 
uranium conversion facility, located in Metropolis, Illinois.
    In October, the plant's owner announced it was suspending 
operations at the site due to market conditions for uranium. We 
have a glut of uranium on the market and lingering low demand, 
in part due to the suspension of the Japanese fleet of nuclear 
power plants in the wake of the Fukushima earthquake, or 
tsunami, 7 years ago.
    While there may not be an immediate fix to the uranium 
market, the most important policy to help my constituents 
return to work is a strong, positive outlook for our Nation's 
domestic nuclear industry.
    To maintain a robust nuclear industry, Congress must 
consider the many different opportunities to provide a pathway 
to keep existing plants operational, while establishing the 
foundation for new nuclear energy deployment in the next 
decade.
    While mining, converting, enriching, and manufacturing 
nuclear fuel is a necessity to support the front end of the 
fuel cycle, we are long past due to manage the back end of the 
fuel cycle.
    As we do this, we have to recognize the uncertainty about 
our used fuel commitments will continue to be a political 
albatross around nuclear energy development until the 
Department of Energy starts sending clear signals and 
reconstitutes its nuclear waste management organization.
    I very much appreciate that last year the Commission, for 
the first time since 2010, requested funding to resume its 
review of the pending Yucca Mountain license application, as 
required by law.
    While it is still incumbent on Congress to provide the 
funding, it is refreshing to see an administration that is 
committed to following the law.
    As I have noted on many occasions, the NRC's independent 
review of the license will answer the safety and environmental 
impact questions the State of Nevada has raised.
    To gain the public's confidence in nuclear energy, we must 
have a functioning nuclear waste management program. The 
Commission's strong legacy of effective and efficient 
regulation is another key component of public confidence.
    However, the many pressures on the nuclear industry provide 
an opportunity for the NRC to reassess its regulatory process 
and flexibility.
    The Commission's fiscal year 2019 budget sets the 
parameters for how the organization will steward its resources 
in a changing environment.
    Last month, we heard a clear message of urgency. As your 
former colleague, Bill Ostendorff, succinctly pointed out, our 
civilian nuclear energy industry infrastructure is the 
underpinning of our strategic nuclear defense capabilities.
    In fact, I went down and visited with Admiral Caldwell just 
last week, and it was a great visit and I would encourage a lot 
of my colleagues to do that.
    In turn, an agile regulatory regime that oversees the 
breadth of the nuclear supply capacity supports our national 
interests.
    Mr. Ostendorff's testimony highlighted the critical need to 
advance a suite of nuclear policies to define our nuclear 
future and establish a durable program to sustain the industry 
for the next generation of nuclear leaders.
    This morning we will seek some of those answers, and I look 
forward to working with my colleagues on both sides of the 
aisle to address this critical issue.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Welcome to our hearing this morning as we will examine the 
Nuclear Regulatory Commission's Fiscal Year 2019 budget 
proposal. The NRC's essential role in licensing and regulating 
nuclear facilities is of great importance to my Illinois 
constituents.
    Illinois produces the largest share of nuclear-generated 
electricity in the country. Throughout the State, the 
commercial nuclear energy industry supports thousands of high-
paying jobs, funds local school districts, and provides 
reliable, clean, baseload electricity around the clock. In 
fact, a little over 75 years ago, Illinois was the site, at a 
lab under the University of Chicago's football field, where 
physicists and engineers first generated a self-sustaining 
nuclear chain reaction. We are proud to be the birthplace of 
nuclear technology.
    While I do not have any commercial nuclear power plants in 
my Southern Illinois district, I do represent the Nation's only 
uranium conversion facility located in Metropolis, Illinois. In 
October, the plant's owner announced it was suspending 
operations at the site due to market conditions for uranium. We 
have a glut of uranium on the market, and lingering low demand, 
in part due to the suspension of the Japanese fleet of nuclear 
power plants in the wake of the Fukushima earthquake 7 years 
ago.
    While there may not be an immediate fix to the uranium 
market, the most important policy to help my constituents 
return to work is a strong positive outlook for our Nation's 
domestic nuclear industry. To maintain a robust nuclear 
industry, Congress must consider the many different 
opportunities to provide a pathway to keep existing plants 
operational, while establishing the foundation for new nuclear 
energy deployment in the next decade.
    While mining, converting, enriching and manufacturing 
nuclear fuel is a necessity to support the front end of the 
fuel cycle, we are long past due to manage the back end of the 
fuel cycle. As we do this, we have to recognize that 
uncertainty about our used fuel commitments will continue to be 
a political albatross around nuclear energy development until 
the Department of Energy starts sending clear signals and 
reconstitutes its nuclear waste management organization.
    I very much appreciate that last year the Commission, for 
the first time since 2010, requested funding to resume its 
review of the pending Yucca Mountain license application, as 
required by law. While it is still incumbent on Congress to 
provide the funding, it is refreshing to see an administration 
that is committed to following the law.
    As I have noted on many occasions, the NRC's independent 
review of the license will answer the safety and environmental 
impact questions the State of Nevada has raised. To gain the 
public's confidence in nuclear energy, we must have a 
functioning nuclear waste management program.
    The Commission's strong legacy of effective and efficient 
regulation is another key component of public confidence. 
However, the many pressures on the nuclear industry provide an 
opportunity for the NRC to reassess its regulatory process and 
flexibility. The Commission's FY 2019 budget sets the 
parameters for how the organization will steward its resources 
in a changing environment.
    Last month, we heard a clear message of urgency. As your 
former colleague, Bill Ostendorff, succinctly pointed out, our 
civilian nuclear energy industry infrastructure is the 
underpinning of our strategic nuclear defense capabilities. In 
turn, an agile regulatory regime that oversees the breadth of 
the nuclear supply capacity supports our national interests. 
Mr. Ostendorff's testimony highlighted the critical need to 
advance a suite of nuclear policies to define our nuclear 
future and establish a durable program to sustain the industry 
for the next generation of nuclear leaders.
    This morning we will seek some of those answers, and I look 
forward to working with my colleagues on both sides of the 
aisle to address this critical issue.

    Mr. Shimkus. And with that, I have a minute remaining. Does 
anyone seek time?
    The Chair recognizes the gentlelady from Tennessee for a 
minute.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    In my home State of Tennessee, TVA is leading the way with 
three nuclear plants and seven units capable of generating an 
average of 7,800 megawatts of electricity each day.
    Watts Bar, and I know you all are familiar with Watts Bar--
that's near the northern end of Chickamauga Reservoir in east 
Tennessee--is the first new nuclear reactor built in the 21st 
century and supplies enough electricity for about 1.2 million 
households in the Tennessee Valley.
    Watts Bar experienced its fair share of challenges and 
setbacks in the process to becoming operational. Unfortunately, 
we are seeing those challenges across the country, and without 
a reasonable, modern, flexible regulatory system, the U.S. will 
continue to struggle to maintain existing plants, leaving 
little opportunity for new plants to come online.
    So it is essential that the NRC develop a more agile and 
responsive regulatory model equipped for today's changing 
energy industry and security needs.
    And I yield back.
    Mr. Shimkus. Gentlelady yields back the time.
    Chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, and good morning.
    Thank you to both Chair Shimkus and Chair Upton for holding 
this hearing, and welcome back and thank you to our Chair 
Svinicki and Commissioner Burns for appearing before the 
subcommittees today.
    And let me extend a special welcome back to Commissioner 
Baran, who served with distinction as a professional staff 
member of this committee for a great number of years.
    So welcome to all of you.
    The Nuclear Regulatory Commission's mission is to license 
and regulate the Nation's civilian use of radioactive materials 
to ensure adequate protection of public health and safety, to 
promote the common defense and security, and to protect the 
environment.
    This deed is no easy task, and I want to put an additional 
emphasis on protecting health and safety.
    Members on this committee have a range of views on existing 
and new nuclear power, but I believe there is unanimous 
agreement that we need high standards for nuclear safety.
    So thank you to the Commission staff that have this awesome 
responsibility. We are here today to discuss the Nuclear 
Regulatory Commission's fiscal year 2019 budget request of 
$970.7 million.
    This represents an increase of about $60 million compared 
to the fiscal year '18 annualized continuing resolution level.
    Much of this increase is being driven by the $47.7 million 
for activities related to the disposal of spent nuclear fuel 
and high-level radioactive waste.
    Licensing activities related to the proposed Yucca Mountain 
Repository, which I am sure my colleague, Mr. Shimkus, was 
happy to see, are included in the request.
    I would also note the budget request represents a decrease 
of 149 FTEs compared to the fiscal year 2018 annualized 
continuing resolution, with 123 of those FTEs coming from the 
Nuclear Reactor Safety Program.
    Over the past few years, Commissioners have appeared before 
this committee and provided updates on Project Aim, the 
Commission's effort to right size the agency in light of 
changes and trends occurring in the nuclear industry.
    Without a doubt, the Commission has been streamlined. The 
budget has been reduced by about 13 percent and staff by over 
500 FTEs since 2014. This has been a steady trend.
    While I understand and appreciate the goals of making the 
Commission more efficient, continuing cuts at this pace is not 
a good way for such an important and technical agency to run.
    At some point, you are no longer capable of doing more with 
less. You just end up doing less, and safety is one place where 
doing less is nonnegotiable.
    So I would caution against continuing to push reduction 
targets if we are approaching a point where critical Commission 
functions such as safety inspection hours begin to suffer 
because, if the Commission is unable to maintain essential 
personnel or replenish its aging workforce or hire additional 
staff with expertise in new technologies, it could be the 
public that does suffer.
    And the industry will certainly suffer too with delays in 
licensing and review processes. The Commission must be staffed 
and resourced at levels appropriate for carrying out its 
critical oversight and safety missions.
    I also wanted to mention that we have spent quite a bit of 
time this past year discussing grid resilience, and Secretary 
Perry's notice of proposed rulemaking to FERC, which would have 
compensated power generators with 90 days of fuel on site, was 
rightly rejected, in my opinion.
    I know there are many Members that believe the nuclear 
industry is at a competitive disadvantage and nuclear energy 
production should be fairly compensated for its positive 
attributes.
    We may disagree which of those attributes are most 
important. But, in my view, the best way to ensure the existing 
nuclear fleet is on a level playing field is putting a national 
price on greenhouse gas pollution.
    I would encourage the industry supporters in Congress to 
consider having that conversation.
    Finally, I must mention that in just a few months, without 
Senate action the Commission will lack a quorum. I hope we can 
all urge our Senate colleagues to take up the nominations 
before then.
    I look forward to hearing from our witnesses today about 
what is next for the Commission and, again, I thank you all for 
being here and I yield back, Mr. Chair, the balance of my time.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Upton, the chairman of the Energy Subcommittee, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Good morning to everybody. My district, as you all know--
many of you know--hosts three nuclear power reactors, and I 
certainly represent a very highly skilled, hardworking nuclear 
workforce that I visit often.
    All the men and women at the Cook and Palisades sites, 
including engineers, electricians, professional security 
workforce, indeed help provide clean electricity for thousands, 
tens of thousands, hundreds of thousands of Michigan households 
and I appreciate their dedication, and I am proud of their 
positive impact on our community.
    This Congress, the Energy Subcommittee has been examining 
the various economic pressures in our wholesale power markets. 
It has become clear that our Nation's fleet of commercial 
nuclear power plants is at a critical juncture due to the 
increased competition among generation resources.
    Complex electricity pricing rules, abundant natural gas 
supplies, and relatively stable energy demand have created 
unprecedented market challenges for nuclear power generation 
and, consequently, some power plants are ceasing operation 
prior to the end of their licensed service period.
    So as we consider the future of nuclear power generation, 
we should not forget the industry's invaluable benefits to our 
Nation's national security interest.
    The technological infrastructure of our nuclear industry 
supports the nuclear security posture of our nuclear navy, 
nonproliferation programs, and nuclear leadership over the 
safe, secure operations of nuclear facilities around the globe.
    And as we heard at a subcommittee hearing just last month, 
that position should not be taken for granted. A weakening 
domestic nuclear industry threatens our international 
credibility and our leadership.
    The NRC plays a key role in shaping our nuclear future. The 
mission assures that our commercial industry operates safely. 
However, much of the NRC's regulatory framework was developed 
based on technologies and industry structures that were set up 
some 40 years ago.
    In some cases, NRC's authority and process extends even 
further back to President Eisenhower's Atoms for Peace program, 
an enactment of the Atomic Energy Act of 1954.
    Just as this subcommittee is examining how the Department 
of Energy's activities can be aligned with a 21st century 
energy outlook, so should the NRC consider how it can most 
effectively operate in a forward-looking manner.
    Today's hearing offers the opportunity to hear how the NRC 
can adopt in changing industry dynamics and technologies in 
use. A more nimble energy agency can address these challenges 
and ensure its procedures do not become impediments to a robust 
industry and our national security interests.
    I note that next week will mark the tenth anniversary of 
the service of Chairman Svinicki. She recently passed former 
NRC Chair Nils Diaz and now is the second longest-serving 
Commissioner in history, only trailing Commissioner 
McGaffigan's 14 years.
    I should also note that nearly 40 years ago Commissioner 
Burns began his career at the NRC and rose through the ranks to 
become its general counsel prior to departing the nuclear 
energy agency. He returned to the U.S. when he was nominated 
and confirmed as Commissioner in 2014, so while he may not have 
the same tenure length, he certainly surpassed the Chairman in 
overall service with this organization. Thank you.
    And thank you, Mr. Burns, for your dedication during your 2 
years as Chair. Among other improvements in the regulatory 
process the NRC implemented its Project Aim initiative by 
prioritizing and rebaselining its activities.
    This allows reduced organizational costs, which ultimately 
saves tons of money for Michigan ratepayers. Thank you again.
    Also welcome back Commissioner Jeff Baran back to the 
committee. He was a counsel here, as mentioned earlier, and 
confirmed by the Commission.
    Clean and safe and reliable nuclear energy has got to 
remain part of our Nation's electricity portfolio. I look 
forward to exploring the policies and, without objection, yield 
back the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good morning and thank you for being with us today to 
discuss the Nuclear Regulatory Commission's Fiscal Year 2019 
budget request.
    My district hosts three nuclear power reactors and I 
represent a highly skilled, hard-working nuclear workforce. All 
the men and women at the Cook and Palisades sites, including 
engineers, electricians, and the professional security 
workforce, help provide clean electricity for thousands of 
Michigan households. I appreciate their dedication and am proud 
of their impact on those communities.
    This Congress, the Energy Subcommittee has been examining 
the various economic pressures in our wholesale power markets. 
It has become clear our Nation's fleet of commercial nuclear 
power plants is at a critical juncture due to increased 
competition among generation resources.
    Complex electricity pricing rules, abundant natural gas 
supplies, and relatively stable energy demand have created 
unprecedented market challenges for nuclear power generation. 
Consequently, some power plants are ceasing operation prior to 
the end of their licensed service period.
    As we consider the future of nuclear power generation, we 
should not forget the industry's invaluable benefits to our 
Nation's national security interests. The technological 
infrastructure of our nuclear industry supports the nuclear 
security posture of our nuclear navy, nonproliferation 
programs, and nuclear leadership over the safe, secure 
operations of nuclear facilities around the world.
    As we heard at a subcommittee hearing last month, that 
position should not be taken for granted; a weakening domestic 
nuclear industry threatens our international credibility and 
leadership.
    The Nuclear Regulatory Commission plays a key role in 
shaping our nuclear future. The NRC's mission assures that our 
commercial industry operates safely.
    However, much of the NRC's regulatory framework was 
developed based on technologies and industry structure set up 
40 years ago. In some cases, NRC's authority and processes 
extend even further back to President Eisenhower's Atoms for 
Peace program and enactment of the Atomic Energy Act of 1954.
    Just as this subcommittee is examining how the Department 
of Energy's activities can be aligned with a 21stcentury energy 
outlook, so should the NRC consider how it can most effectively 
operate in a forward-looking manner.
    Today's hearing offers the opportunity to hear how the NRC 
can adapt to changing industry dynamics and technologies in 
use. A more nimble agency can address these challenges and 
ensure its procedures do not become impediments to a robust 
industry, and our national security interests.
    I'd note that next week will mark the tenth anniversary of 
service for Chairman Svinicki with the NRC. She recently passed 
former NRC Chairman Nils Diaz and now is the second longest-
serving Commissioner in history, only trailing Commissioner 
McGaffigan's 14 years of service.
    I should also note that nearly 40 years ago Commissioner 
Burns began his career at the NRC and rose through the ranks to 
become its General Counsel prior to departing for the Nuclear 
Energy Agency. He returned to the United States when he was 
nominated and confirmed as a Commissioner in 2014. So, while he 
may not have the same tenure as Commissioner, he surpasses the 
Chairman in overall service with the organization.
    Thank you, Mr. Burns, for your dedication to the NRC. 
During your 2 years as Chairman, among other improvements in 
the regulatory process, the NRC implemented its Project Aim 
initiative by prioritizing and re-baselining its activities. 
This allows reduced organizational costs, which ultimately 
saves money for my Michigan ratepayers.
    I also welcome Commissioner Jeff Baran back to the 
committee. Commissioner Baran is in familiar territory as he 
was a counsel for this committee prior to his nomination and 
confirmation to the Commission.
    Clean and reliable nuclear energy must remain a part of our 
Nation's electricity portfolio. I look forward to exploring 
what policies can be implemented to assure this is achieved.

    Mr. Shimkus. Gentleman yields back his time. Sounds like 
purgatory.
    But having said that, the Chair now recognizes the 
gentleman from New Jersey, the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I want to thank you and our subcommittee ranker for holding 
this Nuclear Regulatory Commission oversight hearing on the 
President's budget proposal, and I welcome Chairman Svinicki 
and Commissioner Burns.
    Mr. Shimkus. Svinicki.
    Mr. Pallone. And I got to watch it with you, huh? Svinicki. 
All right.
    And Commissioner Burns, and I am particularly pleased to 
welcome back to the committee a distinguished former member of 
the Democratic staff, Commissioner Jeff Baran.
    Last year, I opposed Secretary Perry's notice of proposed 
rulemaking to FERC that would have undermined functioning 
electricity markets by tipping it in favor of nuclear and coal, 
and despite that opposition I continue to believe that a safe, 
efficient, and modern nuclear fleet should be an important part 
of our Nation's effort to combat climate change.
    However, nuclear power and technology still have challenges 
to overcome. For existing units, it's critical that they be 
able to meet the safety needs of a post-Fukushima world, the 
security challenges of a post-9/11 world, and the financial 
requirements of a market with some of the lowest natural gas 
and renewable prices in history.
    These price pressures are contributing to the early closure 
of units across the country such as the accelerated shutdown of 
the Oyster Creek facility in New Jersey, and while Oyster Creek 
is very old and was due to close soon anyway, there are also 
newer plants capable of many more years of production that are 
threatened for closure because of these economic pressures.
    And as a result, many States are taking action or formally 
considering action to preserve the operation of the nuclear 
plants.
    The fate of these plants is up to the companies who own 
them, the Governors, and the legislatures of those States and 
others, and the courts, and those are the proper venues and 
players to make these decisions, not FERC.
    Meanwhile, advancements in nuclear technology, particularly 
in the area of small modular reactors, hold the possibility of 
a newer, safer generation of nuclear power, and I support the 
work that companies like New Jersey's Holtec are doing in this 
area.
    The test for the industry is to show that such units can be 
brought online in a timely and cost-effective manner, a 
question that continues to remain unanswered.
    We also still need to address the storage and disposal of 
nuclear waste and the rapidly accelerating phenomenon of 
decommissioned units.
    The legislation authored by Chairman Shimkus that was 
overwhelmingly reported out of this committee last year is an 
important step towards dealing with that issue, and I hope to 
see it on the House floor in the near future.
    I believe there is an important role for nuclear energy to 
play in addressing global climate change, but I want to make 
perfectly clear that safety must come first.
    This is a critical moment in time for the nuclear industry 
and its regulators, and I commend the Commission for its 
ongoing efforts to adopt the size and structure of the NRC to 
today's regulatory realities.
    However, it's critical we ensure that the Commission has 
the staff and resources it needs not just to carry out its 
mission but to carry out it well.
    The job of the Commission is to regulate nuclear power for 
the benefit of all Americans, not just one industry or sector. 
So we must work together to find a way forward for nuclear 
energy without sacrificing safeguards.
    So, again, I want to thank the Commissioners for coming. I 
look forward to the testimony, and I yield the balance of my 
time to Ms. Matsui.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I want to thank the subcommittee chairmen and ranking 
members for holding this Nuclear Regulatory Commission 
oversight hearing on the President's budget proposal. I welcome 
Chairman Svinicki and Commissioner Burns, and I am particularly 
pleased to welcome back to the committee a distinguished former 
member of the Democratic staff, Commissioner Jeff Baran.
    Last year, I opposed Secretary Perry's notice of proposed 
rulemaking to FERC that would have undermined functioning 
electricity markets by tipping them in favor of nuclear and 
coal. Despite that opposition, I continue to believe that a 
safe, efficient and modern nuclear fleet should be an important 
part of our Nation's effort to combat climate change.
    However, nuclear power and technology still have challenges 
to overcome. For existing units, it's critical that they be 
able to meet the safety needs of a post-Fukushima world, the 
security challenges of a post-9/11 world, and the financial 
requirements of a market with some of the lowest natural gas 
and renewable prices in history. These price pressures are 
contributing to the early closure of units across the country, 
such as the accelerated shutdown of the Oyster Creek facility 
in New Jersey. While Oyster Creek is very old and was due to 
close soon anyway, there are also newer plants capable of many 
more years of production that are threatened for closure 
because of these economic pressures.
    As a result, many States are taking action or formally 
considering action to preserve the operation of their nuclear 
plants. The fate of these plants is up to the companies who own 
them, the Governors and legislatures of those States, and the 
courts. Those are the proper venues and players to make those 
decisions, not FERC.
    Meanwhile, advancements in nuclear technology, particularly 
in the area of small modular reactors, hold the possibility of 
a newer, safer generation of nuclear power, and I support the 
work that companies like New Jersey's Holtec are doing in this 
area. The test for the industry is to show that such units can 
be brought online in a timely and cost effective manner--a 
question that continues to remain unanswered.
    We also still need to address the storage and disposal of 
nuclear waste and the rapidly accelerating phenomenon of 
decommissioned units. The legislation authored by Chairman 
Shimkus that was overwhelmingly reported out of this committee 
last year is an important step toward dealing with that issue. 
I hope to see it on the House floor in the near future.
    I believe there is an important role for nuclear energy to 
play in addressing global climate change, but I want to make 
perfectly clear that safety must come first. This is a critical 
moment in time for the nuclear industry and its regulators. I 
commend the Commission for its ongoing efforts to adapt the 
size and structure of the NRC to today's regulatory realities. 
However, it is critical we ensure that the Commission has the 
staff and resources it needs, not just to carry out its 
mission, but to carry it out well. The job of the Commission is 
to regulate nuclear power for the benefit of all Americans, not 
just one industry or sector, so we must work together to find a 
way forward for nuclear energy without sacrificing safeguards.
    Again, I want to thank the Commissioners for coming today, 
and I look forward to hearing the testimony. I yield the 
remainder of my time.

    Ms. Matsui. Thank you very much, Ranking Member Pallone, 
and I'd also like to welcome the Commissioners for being here 
today.
    I'd like to echo the ranking member's support for efforts 
to license an interim storage facility for spent nuclear fuel.
    As this committee is aware, it's absolutely critical that 
we allow communities to redevelop shut-down reactor sites by 
moving forward with a process to consolidate spent fuel.
    The current storage reality is wasteful of taxpayer 
resources and detrimental to communities. We have all seen the 
efforts to build a permanent repository repeatedly stall.
    But right now, we have a path forward to license a 
consolidated storage facility, meaning there is an opportunity 
to move the Nation's spent fuel to one location.
    I am pleased that the NRC has docketed two applications for 
interim facilities and that the Commission is requesting the 
funding necessary to evaluate both concurrently.
    I look forward to hearing more from my Commissioners about 
the NRC's work on the spent fuel storage licensing process.
    Thank you, and I yield back.
    Mr. Shimkus. The gentlelady and gentleman yield back their 
time? The answer is yes.
    We now conclude with Members' opening statements. The Chair 
would like to remind Members, that pursuant to committee rules, 
all Members' opening statements will be made part of the 
record.
    We want to thank all our witnesses for being here today and 
taking the time to testify before the subcommittee. Today's 
witnesses will have the opportunity to give opening statements 
followed by a round of questions from Members.
    Our witness panel for today's hearing will include the 
Honorable Kristine Svinicki, Chairman of the United States 
Nuclear Regulatory Commission, the Honorable Jeff Baran, 
Commissioner, U.S. Nuclear Regulatory Commission, and the 
Honorable Stephen Burns, Commissioner with the U.S. Nuclear 
Regulatory Commission.
    We appreciate you all being here today. We will begin the 
panel with the Honorable Kristine Svinicki, and you are now 
recognized for 5 minutes to give an opening statement.
    Welcome to you all. We are glad to have you here.

 STATEMENTS OF KRISTINE SVINICKI, CHAIRMAN, AND JEFF BARAN AND 
  STEPHEN BURNS, COMMISSIONERS, NUCLEAR REGULATORY COMMISSION

                 STATEMENT OF KRISTINE SVINICKI

    Ms. Svinicki. Good morning, Chairmen Upton and Shimkus, 
Ranking Members Pallone and Tonko, and distinguished members of 
the subcommittees.
    My colleagues and I appreciate the opportunity to appear 
before you today to discuss the U.S. NRC's fiscal year 2019 
budget request and related matters.
    The funding we are requesting for FY 2019 provides the 
resources necessary to accomplish our mission, which is to 
license and regulate the civilian use of radioactive materials 
to ensure adequate protection of public health and safety and 
to promote the common defense and security.
    The NRC's fiscal year 2019 budget request, including 
resources for our Office of the Inspector General, is $970.7 
million, which represents and overall increase of $59.8 million 
compared with the fiscal year 2018 as continuing resolution.
    This requested increase in resources is largely tied to the 
proposed activities related to the licensed application 
authority at the Yucca Mountain geologic repository for spent 
nuclear fuel and other high-level radioactive waste. Additional 
funding is also requested for further development of the 
regulatory infrastructure needed to review advanced reactor 
technologies and for additional work on accident-tolerant fuel.
    The NRC proposes to recover $815.4 million of the requested 
budget from fees assessed to NRC's licensees. This would result 
in a net appropriation of $155.3 million, with $47.7 million to 
be derived from the nuclear waste fund.
    The 2019 request for our largest single budget line, the 
nuclear reactor safety program, reflects an overall funding 
increase of $25.8 million but a decrease of 125 full-time 
equivalent employees when compared to the 2018 annualized CR 
budget.
    The 2019 budget request for the agency's other principal 
budget line, nuclear materials and waste safety programs, is 
$183.7 million, and that reflects an increase of $46.8 million.
    Again, this is principally attributed to the resources 
requested for the high-level waste program, as previously 
mentioned.
    In summary, the NRC's budget request reflects our 
continuing efforts to achieve additional efficiencies while 
carrying out our core safety and security mission but also 
preparing for future responses to current realities.
    On behalf of the Commission, I thank you for this 
opportunity to appear before you and for your continuing 
support of our important public health and safety mission.
    We will be pleased to answer your questions at the 
appropriate time.
    Thank you.
    [The prepared statement of Ms. Svinicki follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    Mr. Shimkus. Thank you very much.
    The Chair now recognizes the Honorable Commission Baran for 
5 minutes.
    I am sorry. We are fighting over spelling back here so----

                    STATEMENT OF JEFF BARAN

    Mr. Baran. Chairman Upton, Chairman Shimkus, Ranking Member 
Tonko, members of the committee, thank you for the opportunity 
to testify today.
    It's great to be back with my colleagues to discuss NRC's 
fiscal year 2019 budget request and the work of the Commission.
    Chairman Svinicki provided an overview of NRC's budget 
request. I want to briefly highlight a few related efforts 
underway at NRC.
    I will start with Project Aim, our multiyear effort to take 
a hard look at what work the agency is doing and how we are 
doing that work.
    The goals have been to become more efficient and agile and 
to prepare for the future. The results of Project Aim in our 
very limited external hiring have been dramatic.
    In just 2 years, NRC's workforce has declined by more than 
12 percent. The agency started the current fiscal year with 
around 3,200 employees. That's about the same staffing level as 
in 2006, before NRC started to ramp up for the anticipated wave 
of new reactor applications.
    When Project Aim got underway in 2015, the NRC staff 
envisioned that it would take until 2020 to match the agency's 
resources to its workload. But NRC was able to make progress 
much more quickly on getting to the right staffing level for 
our current and expected workload.
    Going forward, we need to internalize an enduring focus on 
efficiency. For the agency's long-term health, we also need a 
stable pipeline of new talent through external hiring and an 
emphasis on maintaining the NRC staff's core technical 
capabilities and safety inspection activities.
    As Chairman Svinicki noted, the NRC has launched a 
transformation initiative to identify any steps the agency 
should take to improve its approach to reviewing new and novel 
technologies such as advanced reactors, accident-tolerant fuel, 
and digital instrumentation and controls.
    I think that's a good focus for the transformation team and 
appreciate that the team is doing a lot of outreach to 
stakeholders. I look forward to hearing their thoughts and 
recommendations.
    There are many other important efforts underway at NRC 
including the implementation of post-Fukushima safety 
enhancements, the power reactor decommissioning rulemaking, the 
review of the first small modular reactor design application, 
and oversight of construction at the Vogtle site.
    We are happy to discuss these and any other issues of 
interest. Thank you, and I look forward to your questions.
    Mr. Shimkus. Thank you.
    The Chair now recognizes Commissioner Burns for 5 minutes.

                   STATEMENT OF STEPHEN BURNS

    Mr. Burns. Thank you, Chairman Shimkus. I also appreciate 
being here, Chairman Upton, Ranking Members Pallone and Tonko, 
and distinguished members of the committee, appreciate the 
opportunity to testify before you today.
    I also appreciate Chairman Upton's kind words. I can tell 
you, 40 years ago at this point in time, I had a big weight off 
my shoulders because I knew in my last semester of law school I 
had a job coming up in August. So that was saying----
    I didn't actually expect I would stay in this field for 40 
years, but it's been an interesting one. I've always enjoyed 
not only the legal issues but working with technical staff and 
others, both in our country and internationally.
    I support the Chairman's testimony this morning and agree 
that the funding we are requesting provides the resources 
needed to accomplish our safety and security mission while 
continuing to improve our efficiency and effectiveness as an 
agency.
    As a number of you have noted, the NRC has undertaken some 
significant efforts over the last few years to improve that 
efficiency and effectiveness.
    Project Aim was a major part of those efforts. But 
additional improvements have included implementation of 
improvements to the NRC's rulemaking processes, to its budget 
formulation, to its fee calculations and billing, and also to 
agency staffing and workforce planning, although the vast 
majority of the specific tasks under Project Aim were completed 
and its spirit still endures and we are still working to 
continue to be an effective agency.
    It's important not to lose sight, however, of the 
fundamental safety and security mission of the agency. We can 
always strive to perform better in that mission and to better 
risk inform our decisions, but that safety and security of the 
public must always be the central focus.
    Having spent 37 years of my professional career with the 
NRC, I know there are times that when we have had to learn from 
our experience--learn to do better and to improve our 
performances irregular.
    But on the whole, I can say that I think we hit the mark 
the vast majority of the time in achieving a high standard of 
performance, and if anything, over those nearly 40 years, I've 
come to the conclusion it's never good to say, ``We've always 
done it that way, let's do it more that way.''
    There's always ways--and I can think of times across my 
career where we've had to reset, think about how we are doing 
things, think about how we can do them better, and I think 
that's what we are doing under the Chairman's leadership.
    Over the past year, we've continued to hold the industry 
accountable through regulation and oversight, ensure the 
effective implementation of the lessons learned from the 
Fukushima Daiichi accident.
    We focused on cybersecurity, worked effectively with our 
partners and the States to ensure the safety of our radioactive 
materials program and brought, and sought improved performance 
by fuel cycle facilities.
    At the same time, we've undertaken reviews of the first 
small modular reactors submitted for design certification. We 
are implementing strategies to be better prepared for the 
review of advanced reactor, or Generation IV designs.
    Credit belongs largely on a day-to-day basis to the work of 
our dedicated staff in achieving these accomplishments, and I 
appreciate their day-to-day focus on ensuring adequate 
protection of the public.
    Thank you again for the opportunity to appear before you, 
and I look forward to answering any questions you may have.
    Mr. Shimkus. We thank you.
    I will now begin with questions, and I will start with 
recognizing myself for 5 minutes.
    So the first one will go to Chairman Svinicki and 
Commissioner Burns. First, let me thank you for your vote last 
summer to take the next steps to determine what is necessary 
for the resumption of the Yucca Mountain licensing process.
    A few weeks ago, NRC staff had a public hearing to discuss 
what steps are needed to reconstitute the licensing support 
network, or LSN. The LSN is a database of licensing documents 
associated with the Yucca Mountain license application.
    The NRC requested $30 million in fiscal year 2018 to 
continue its statutorily required review of the license 
application and $47.7 million for 2019.
    Will you please describe what Commission-level decisions 
and guidance will be necessary when Congress appropriates 
funding to resume the NRC's adjudication of the license?
    Chairman.
    Ms. Svinicki. Thank you, Chairman Shimkus.
    In broad terms, if funding is provided, we need to begin to 
rapidly put in place the infrastructure to resume the 
adjudication that was suspended some years ago.
    As you have mentioned, in preparation for that and under 
the court's remand to expend previously appropriated nuclear 
waste fund money--which we have at this point, I think, based 
on the monthly report we sent to you yesterday, a little bit 
under half a million left--we have looked at alternatives to 
reconstituting the document library that would support the 
evidentiary process in the licensing hearing, and also we are 
undertaking a high-level real estate survey of facilities that 
might be available in Nevada to support conducting the hearings 
near to the facility, which is our policy.
    Mr. Shimkus. Commissioner Burns.
    Mr. Burns. I would agree with what the Chairman said. I 
think the point she makes is essentially where we are at this 
is that--at the point where the adjudicatory proceeding was 
suspended several years ago and that's the point where we would 
begin again, because the staff has done the safety evaluation 
reviews and the environmental reviews that they need to do up 
to date.
    Mr. Shimkus. And let me go both to the same questionnaires. 
What are we doing to preserve the workforce expertise that may 
be necessary to adjudicate the license?
    Chairman.
    Ms. Svinicki. That adjudication having been suspended so 
many years ago, candidly, the staff were, upon completion of 
the safety evaluation report and environmental work, reassigned 
to other duties, which was a way to keep them within the 
agency's span should funding be provided.
    However, over the course of time, we have had some 
significant retirements, by my observation, of people that had 
long history on and knowledge of the project.
    The good news is that, with the safety evaluation report 
being concluded, I have asked if an expert was assigned and was 
fresh to the project, if they had the relevant scientific 
expertise, could they just acquaint themselves with the record, 
with the conclusions of their predecessors, and I am told that 
some experts view that they could possibly become conversant in 
as little as 6 months.
    Mr. Shimkus. Great.
    Commissioner Burns.
    Mr. Burns. I would align myself with the Chairman's answer.
    Mr. Shimkus. That's fine. Thank you.
    Let me ask this question: Chairman, can you just state--
because we have new members of this subcommittee, new members 
of Energy and Commerce--so what was the basic conclusion from 
the safety and evaluation report, which you issued a couple 
years ago?
    Ms. Svinicki. The NRC's expert staff documented their 
conclusion that there were no safety or environmental 
impediments to the issuance of a license.
    However, they did note--and this is a construction permit 
license, because this is two-step licensing--they did note, 
however, that the applicant, the Department of Energy, lacks 
the water rights and they don't have clear ownership or title 
to the land, which is a requirement of our regulations. But 
those were the two impediments to issuing the license, and they 
were not safety or environmental.
    Mr. Shimkus. And those were some of the things we tried to 
address in our legislation, just for some of my colleagues. 
There's also a--correct me if I am wrong--there was also a 
statement that, if constructed and the facility, long-term 
geological repository, was in place, based upon current 
information or current knowledge, that storage would be safe 
for a million years. Wasn't that a conclusion of the safety and 
evaluation report?
    Ms. Svinicki. That was the conclusion of the expert staff.
    Mr. Shimkus. Anyone disagree with that--the rest of the 
panel?
    Thank you.
    With that, I think I will just yield back my time and 
recognize the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair, and again, thank you to 
our witnesses for being here.
    The mission of the agency is very critical. So it is 
important that we understand your resource requirements.
    Some Members may believe that the Commission has too heavy 
of a hand, that burdensome regulations on the industry are 
hurting its competitiveness.
    So to our Chair Svinicki, can you give us a sense of the 
types of major new rules the Commission has approved in recent 
years?
    Ms. Svinicki. Well, to take ``recent`` fairly broadly, 
post-9/11 there was a suite of new security requirements that 
were imposed and after Fukushima, although the regulations were 
not significantly modified, new measures were required for what 
we call severe low probability hazards, very severe earthquakes 
and floods and other things that were additional protections 
that were mandated at nuclear power plants.
    Also in response to the cybersecurity threat against the 
United States in recent years, the NRC has instituted new 
cybersecurity regulations. So those are the major areas that 
come to mind in the last 10 years.
    Mr. Tonko. And as it relates to licensees, have there been 
many major rules for new requirements on those licensees?
    Ms. Svinicki. The areas I described did involve new rules. 
You know, major, minor--I would say that the post-9/11, that 
was a major impact in new requirements.
    Fukushima I would not describe as being a major impact, and 
the cybersecurity regulations are sincerely new regulations.
    Mr. Tonko. Commission Baran, what's your sense? Is the 
Commission imposing many new and burdensome requirements on 
industry?
    Mr. Baran. Well, I can give you a shorter-term perspective. 
Commissioner Burns and I have been on the Commission now about 
3\1/2\ years.
    In that time, I can think of only three final rules that 
went into effect that involve any kind of new regulatory 
requirements.
    Only one of those three rules relates to power reactors. 
That was a rule that involved a requirement for a licensee of a 
power reactor to let us know--notify us in the event of a cyber 
event. That was a low-cost rule, and one that I think is pretty 
clearly needed.
    The other two didn't involve reactors at all. One had to do 
with medical uses, and was something that, by and large, the 
medical community was very interested in having done, and then 
the final one affected only a handful of materials licensees in 
the Caribbean. It had to do with meeting treaty requirements.
    So since late 2014, three rules--that's it. I would 
actually argue there are a couple of rules we should finalize 
that we haven't yet.
    One relates to post-Fukushima safety enhancements. It's the 
rule on mitigating strategies that's been before the Commission 
for a while. That's a rule that's really the culmination of 
years of work to enhance safety after Fukushima.
    There's another rule that would assist in better preparing 
the agency for accident-tolerant fuel applications by having 
technology-neutral performance-based standards in place as 
opposed to the standards we have now, which are actually 
technology-specific.
    We have particular technologies that are established into 
regulations. If you want to do something new and innovative, 
you're looking at an exemption to do that.
    So it's been very limited over the last 3\1/2\ years, and I 
think there are actually a couple we should do.
    Mr. Tonko. Thank you. And it seems to me that Project Aim 
has achieved its goals. I fully understand the need for the 
Commission to right size but, as I mentioned earlier, I am 
concerned about the consequences of continuing staffing 
reductions at this rate moving forward.
    Could anyone explain the potential impacts of further 
significant FTE reductions?
    Ms. Svinicki. I would just respond, Mr. Tonko, that right 
now the budget we've submitted for FY '19 we are confident does 
not have or cause a diminishment of our ability to carry out 
our safety mission.
    In my time on the Commission, we were once at a peak of 
slightly over 4,000 employees. Onboard strength--the number 
reported to me yesterday was just a few over 3,000.
    So we have come down quite a bit since the days of the 
nuclear renaissance, and I think the one thing that we are 
looking at is high fidelity in terms of our workforce planning.
    This is something we pay a lot of attention to, to make 
sure that as we have attrition we are not losing the core 
competencies that we need.
    We are also very focused on training and development of 
staff so that they can fulfill future needs as staff retire.
    Mr. Tonko. Right, and I appreciate that. That still seems 
like a huge cut.
    I heard earlier, as Chair Shimkus talked about that 
expertise for Yucca Mountain, I know the Commission has an 
aging workforce and, similar to hiring the next generation of 
NRC staff, we are seeing new technologies including advanced 
reactors being developed and an increasing need for 
cybersecurity.
    So within those disciplines we have, you know, a concern 
also. I am guessing these changes require new expertise among 
the Commission staff. If hiring freezes continue and the next 
generation of Commission staff cannot be recruited, what is the 
potential loss of institutional knowledge?
    Ms. Svinicki. We do not have--although we have strict 
hiring controls in place, we do not have a hiring freeze in 
place. What we do is we look very closely at the core 
competencies of retiring staff and work to make sure we either 
have redundancy and/or are training people for the future. So 
we do monitor that closely.
    Mr. Tonko. Mr. Chair, I yield back.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the chairman of the full committee, 
Mr. Walden, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman. I want to welcome our 
panel today. I was upstairs, and we got an opioids 
investigative hearing going on. So I kind of have to bounce 
back and forth, as do some of my colleagues.
    There's enormous potential with the development of small-
scale modular reactors including from my home State of Oregon 
in NuScale, and I know NRC staff has met a significant 
milestone earlier this year when they determined that SMR 
design would not be required to meet certain offsite power 
requirements, which avoided unnecessary and unneeded regulatory 
planning.
    So Chairman Svinicki, will you please provide an update on 
the status of NRC's review of the SMR design application, and 
to your knowledge is NRC staff on track to meet its targeted 
42-month review window, including meeting the various 
milestones within the overall review period?
    Ms. Svinicki. Thank you, Chairman Walden.
    As you note, the NuScale design was docketed for review, 
and although we are in early days and early months of that 
review, the staff is proceeding on schedule with what we call 
interim milestones of the review.
    I've also had an opportunity to engage the applicant, 
NuScale. They provided positive feedback that the NRC staff is 
proactive on the other item you mentioned, which is the 
resolution of the unique and novel elements of this design and 
resolving anything that arises in terms of aligning our 
regulatory framework and regulations with the new and enhanced 
features of this design. So my observation is that the review 
is proceeding according to schedule so far.
    Mr. Walden. And are there outstanding policy issues that 
must be addressed to successfully complete this licensing 
process, that you're aware of?
    Ms. Svinicki. Yes, but I--so there are policy issues being 
resolved regarding both NuScale and small modular reactors, 
broadly.
    But those have high visibility within the agency. I would 
assess that the NRC staff has scoped the universe of those 
issues and there are policy resolution plans for each of them.
    Mr. Walden. All right. And what is the NRC's forecasted 
total cost to complete the NuScale design review, and are you 
aware if NRC is currently performing with respect to the 
forecasted budget?
    Ms. Svinicki. My previous answer had to do more with the 
schedule. I would need to take that question for the record. I 
am not sure of what our estimates are as far as cost or man-
hours expended.
    Mr. Walden. Recently, the NRC staff implemented a new 
procedure to manage what are known as requests for additional 
information, or RAIs.
    Are you aware if NRC staff applied this new RAI process to 
NuScale's SMR application? If so, can you speak to the number 
of RAIs relative to any comparable licensing action?
    Ms. Svinicki. The new discipline around requests for 
additional information has been applied to the NuScale review 
and has been applied broadly throughout the agency.
    A brief description would be that, prior to requesting 
additional information from an applicant, the NRC expert must 
identify the safety or environmental conclusion that is 
supported by that data, and what that does is it ties the 
request to the agency's underlying findings that we need to 
make.
    NRC managers report that that discipline has really 
improved the efficiency and effectiveness of the request for 
additional information process and it is in place for NuScale, 
although I don't have a specific report on how it's affected 
the numbers of requests.
    Mr. Walden. Yes?
    Mr. Baran. Mr. Chairman, I would just add I had a meeting 
last week with NuScale, and this issue came up and what they 
reported to me was that they had kind of going into this 
process an estimate of how many of these requests for 
additional information they would likely have. But the numbers 
have been lower than what they anticipated. So it's going well 
now.
    Mr. Walden. Oh. All right. Very good. Very good.
    I had the opportunity to go to Idaho Falls with Chairman 
Mike Simpson and tour the INL lab there, too, and I know some 
of this may get built out there eventually. But the lab is 
doing amazing work in space nuclear fuel and their other 
missions. I was very, very impressed.
    Chairman, one other question. It's more rhetorical than 
anything else, but not hard to answer. You have served on the 
Commission with a full complement of five Commissioners as well 
as four, and now three.
    While the current setup allows the NRC to fulfill its 
mission, would you agree that a full slate of five 
Commissioners as established in law allows for a more robust 
organization and diverse viewpoint and decision making?
    Ms. Svinicki. Yes, and may I add my full-throated support 
for my optimism and hope that the Senate will act on the three 
qualified nominees, including my colleague for reappointment. I 
hope that that happens before June 30th.
    Mr. Walden. That would be a hint-hint from this body to the 
other that we'd like to see these Commissions all fully--I will 
call it staffed, but fully filled with very competent people, 
and we've dealt with this out of this committee with other 
Commissions that are still waiting for nominees upstairs.
    In fact, the DEA, it's an acting administrator. We don't 
even have anybody nominated to be the administrator of the Drug 
Enforcement Administration. And so it's something that I think 
we share--that robust, full-fledged Commissions are good 
things.
    So with that, Mr. Chairman, thank you for your leadership 
on these nuclear issues and other energy environment issues, 
and I would yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I would like to thank 
the chairman and ranking member for holding today's hearing on 
the NRC budget.
    The NRC does important work, and it's essential we have a 
body adequately funded for their mission. While the budget is 
the focus of today's hearing, there's a few other policy I 
would like to focus on as well.
    It's been 33 years since Congress passed a nuclear waste 
policy act, and we still haven't a permanent or interim storage 
facility, cheating ratepayers out of billions of dollars in 
collecting fees and leaving utilities holding the bag for 
thousands of gallons of nuclear waste.
    This Congress needs to pass--enact legislation authorizing 
the creation of more than one interim storage facility while we 
work with States and agencies toward opening a permanent 
geological repository.
    My questions--Chairman Svinicki and Commissioners, thank 
you for being here today. Approximately 90 percent of your 
budget comes from annual fees assessed to the NRC licenses. Is 
that correct?
    Ms. Svinicki. Yes, that's correct.
    Mr. Green. As some of the older nuclear sites continue to 
shut down, do you expect a strain on the Commission's budget 
for the loss of revenues from these fees?
    Ms. Svinicki. Yes. As the mathematics work, as the number 
of operating reactors declines, the fixed costs of the 
regulatory program are spread amongst fewer licensees. 
Therefore, it does have an effect of increasing the burden on 
each remaining operating reactor.
    At some point, mathematically that reaches a point that it 
would be very difficult to support.
    Mr. Green. I know the Chair and the Commissioners are in a 
different issue, but--or concern. Do you support opening of an 
interim storage facility?
    Ms. Svinicki. Our Commission, because we are the safety and 
security regulator, would be policy neutral on whether or not 
the Nation should move forward with an interim storage 
facility.
    We would be the independent arbiters of the safety of that 
facility through issuance of a license.
    Mr. Green. OK. With the Yucca Mountain permanent storage 
issue being what it is, what would be the benefit of opening an 
interim storage?
    Ms. Svinicki. Well, again, not as a policy view of our 
Commission but as a practical matter, it would take sites that 
have permanently shut down and other locations that are storing 
a lot of spent nuclear fuel, and it would move it into one safe 
and secure location.
    But that's not a policy view of our Commission. It's simply 
an observation.
    Mr. Green. Do you believe the private industry could be 
capable of safely and responsibly operating an interim storage 
facility under supervision?
    Ms. Svinicki. Well, we will reach that determination if 
either of the two contemplated storage locations should move 
forward with the licensing again.
    The Holtec site in New Mexico is under our review right 
now, and the Waste Control Specialists location in Texas has 
been suspended at the applicant's request. However, there is 
some signal that that may move forward under new ownership.
    Mr. Green. Currently, those two applications you mentioned 
for consolidated member storage facilities have been submitted.
    I have to admit both of those storage facilities 
geographically are fairly close to each other--I think maybe 
even share the same strata in west Texas and southern New 
Mexico.
    NRC--one is in Andrews County and one is in Lee County in 
New Mexico. Where are these applications currently at process? 
I know you said the one in Texas temporarily suspended, 
although there's been a huge amount of investment, I think, in 
both of them.
    Ms. Svinicki. Yes. The Holtec facility in New Mexico has 
been submitted. We have docketed that application, which means 
that we've assessed that it is complete for purposes of review. 
So we've begun the review of that application.
    We were at the stage of reviewing the WCS Texas location. 
However, the applicant asked us to suspend. There is an 
acquisition of that company now ongoing. The new owners have 
indicated that they will be giving us some communication in the 
near future about the potential resumption of that.
    We don't know if that would be asking us to resume what we 
had in house or if they're going to modify or somehow have a 
revised approach.
    Mr. Green. Thank you.
    Mr. Chairman, I have no other questions, but I know you and 
I and a number of people share the frustration that decisions 
were made in the '80s that have been put off now until a new 
century and, hopefully, this Congress can actually move that 
ball down the road, so to speak, or either that, change the 
field. But Congress needs to do something, and thank you for 
holding this hearing.
    Mr. Shimkus. Chairman thanks the gentleman.
    The Chair now recognizes Chairman Upton from Michigan for 5 
minutes.
    Mr. Upton. Thank you, Mr. Chairman, and I would start off 
by saying in Friday's New York Times on the front page there's 
a story that's headlined ``U.S. Says Hacks Left Russia Able to 
Shut Utilities.''
    The first sentence of that story reads, ``The Trump 
administration accused Russia on Thursday of engineering a 
series of cyberattacks that targeted American and nuclear power 
plants and water and electric systems, and could have sabotaged 
or shut power plants off at will.''
    So my question is, What can you tell us in a nonclassified 
answer that relates to the story specifically? Can you tell us 
if they were penetrated in a safety-significant consequence?
    I would note that the story continues to say that Russian 
hackers had not leapt from the company's business networks into 
the nuclear plant controls. Is that still accurate? Can you 
give us that assurance?
    And what role does the NRC have with these--in hearing 
about these situations? What technical expertise concerning 
power reactors is relevant that you might be able to share with 
us this morning?
    Ms. Svinicki. Thank you, Chairman Upton, and respecting the 
open setting, I would state that the NRC's role is that we are 
fully integrated with the FBI, the Justice Department, and the 
other agencies that made the announcement last week.
    These were matters known to us prior to them being publicly 
released on Friday. Our role is not the security of the 
electricity grid as a whole. We leave that to our colleagues at 
the Federal Energy Regulatory Commission.
    In terms of the penetrations, of course, as the committee 
is well aware through its work on cybersecurity, the 
cyberattacks against the United States are persistent and 
serious, and the U.S. Government Interagency, including the 
U.S. NRC, are involved in constant monitoring of the 
sophistication of these attacks--of the success, but even the 
attempts. There's a lot of monitoring of the unsuccessful 
attempts.
    It is true that corporate networks at U.S. nuclear 
utilities were probed, as was described in the announcements. 
However, safety systems at operating nuclear power plants were 
not penetrated.
    This is principally due to the fact that these systems are 
isolated from the corporate systems, and that provides a 
measure of, if you will, air gapping of that, and you'd have to 
leap over that, which is technologically, at least to date, not 
possible to do.
    Mr. Upton. Thank you.
    The NRC sends the Senate Environment and Public Works 
Committee a monthly status on NRC's licensing activities, 
staffing, and related information. Would you be able to send 
that report to us as well?
    Ms. Svinicki. I see no reason why----
    Mr. Upton. Yes. That's an easy one.
    Ms. Svinicki [continuing]. We would not provide that. I am 
surprised that we are not. But yes.
    Mr. Upton. And in January, NRC's executive director of 
operations initiated a transformation effort with a focus on 
identifying transformative changes to NRC's regulatory 
framework, culture, and infrastructure.
    And, as you know, Chairmen Walden, Shimkus, and I wrote 
recently to express our interest in this initiative, and we 
appreciated your timely response to the letter, which was 
received yesterday. This NRC effort appears centered on new and 
novel technologies, including in the areas of digital 
instrumentation and controls, accident-tolerant fuel, advanced 
reactors, big data, et cetera.
    Yet, the benefits of these new technologies require a 
change in how NRC executes its mission and ultimately regulates 
the nuclear industry.
    I understand that the NRC staff will be providing 
recommendations and strategies for implementation to the 
Commission in May.
    Ms. Svinicki. Yes, although I am aware that they've 
received in excess of, I think, 500 or 600 proposed 
transformation initiatives.
    So if the staff were to need additional time to synthesize 
and prepare a set of recommendations for the Commission, just 
for myself I would be supportive of that. I think they've been 
kind of deluged with good ideas.
    Mr. Upton. Thank you. Thank you.
    I yield back.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes the ranking member of the full 
committee, Congressman Pallone from New Jersey, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    My questions are of Mr. Baran. In her written testimony, 
the Chairman notes that, while the fiscal year 2019 budget 
request represents a proposed increase in funding for the 
Commission overall, most of that increase would go towards 
activities related to the Yucca Mountain project and reviewing 
advanced nuclear technologies.
    While I am not looking to quarrel with the increased focus 
on these articular programs per se, I am concerned about what 
those choices mean for other activities that I believe must be 
priorities for the Commission.
    So Commissioner Baran, I understand that NRC recovers the 
majority of its budget through fees, and I have some questions 
about the proposed fees and what it means for staffing at the 
NRC.
    First, I am concerned by the sharp drop in full-time 
employees at the Commission and what this means for safety. Do 
you believe that the Commission has the amount of employees it 
needs to do its job well, not just adequately?
    Mr. Baran. I think most of the cost-cutting measures we've 
implemented to date over the last few years make sense.
    But I would echo Mr. Tonko's point. I don't think any 
further steep reductions would be sustainable. Going forward, I 
would like to see our funding and FTE levels stabilize.
    I think we need to be careful that we are not so focused on 
cutting costs that we do erode the technical capabilities of 
the agency or our inspection activities.
    Mr. Pallone. All right.
    And a second question is, Is the current 90 percent fee 
structure putting undue pressure on the Commission's budget 
because of the shrinking number of nuclear plants and the 
economic pressure the industry is facing due to competition?
    Mr. Baran. Well, as Chairman Svinicki noted earlier, you 
know, in theory, if you have fewer operating plants, that that 
increases the amount each remaining operating plant would have 
to cover.
    Mr. Pallone. And she actually said that at some point it 
would be unsustainable.
    Mr. Baran. Yes. We haven't gotten to that point yet and, in 
large part because of Project Aim, we have seen our costs come 
down over the last few years. So fees have not gone up over the 
last few years for power plants. They've gone down, actually.
    But at an extreme, if there were a large number of plants 
that shut down, you could have an effect there where it would 
be a challenge.
    Mr. Pallone. But you're saying, as she did, that that's, 
you know, something that could happen but you don't see it 
happening in the immediate future?
    Mr. Baran. It has not happened to date, and I don't see it 
as something that, you know, we are worried about right now.
    Mr. Pallone. All right. Thanks so much.
    I yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes the chairman emeritus, Joe Barton 
from Texas.
    Mr. Barton. Well, thank you. More importantly, I am the 
current vice chairman, such as that is.
    Mr. Shimkus. I stand corrected.
    Mr. Barton. Well, I will take both. I think they're both 
complimentary.
    My question is a basic question. I am looking at the 
briefing book, and it says that you get $804 million in fees. 
What portion of that is supposedly going into the high-level 
waste fund to help dispose of high-level nuclear waste?
    Ms. Svinicki. None of that amount. Again, the Yucca 
Mountain-related activities are all funded from the 
appropriations from the nuclear waste fund, and we have to 
execute and keep that money in budgetary purposes. It is 
executed and outlaid separately from the fee collection.
    Mr. Barton. So the $804 million are operating fees from the 
existing reactors. Is that correct?
    Ms. Svinicki. Yes. Those are invoiced directly from the NRC 
to the utilities, and then we receive the payments from them.
    Mr. Barton. And the fee that the utilities pay to help 
dispose of high-level waste, if we were ever to license one 
that's a separate fund and a separate amount of money in 
addition to these other fees?
    Ms. Svinicki. Yes. It was separately enacted in the Nuclear 
Waste Policy Act of 1982. The Department of Energy established 
one mil, which is a thousandth of a cent, I think, for per 
kilowatt hour charge that ratepayers paid in their utility 
bills, and I think that that was then collected by utilities 
provided to the U.S. Treasury.
    Mr. Barton. And how much of that, Madam Chairwoman, has 
been collected over the history of its collection? Do you know?
    Ms. Svinicki. Many tens of billions. But I would have to 
respond with a precise figure. Of course, the fee is in 
suspension now because the U.S. utilities went to court and 
said, in the absence of progress on the disposal site, they 
asked for relief, and the collection of that fee has been 
suspended for some years now.
    Mr. Barton. So it's accrued as a contingent liability, but 
it's not actually been collected from the utilities. Is that 
right?
    Ms. Svinicki. You know, I am not sure of the court's 
treatment of that in their decision. I know that they offered 
the relief of the suspension of the collection of the fee.
    I don't know if the liability continues to accrue and upon 
resumption of activity on Yucca Mountain if that would be then 
reimposed on the utilities. I am not sure.
    Mr. Barton. Now, you're aware that we passed a bill that's 
languishing, I believe, in the Senate that would change the law 
and it would allow for licensing of a high-level waste 
permanent repository, but also it would allow temporary storage 
to also go forward?
    Mr. Shimkus. If the gentleman would sustain, it's 
languishing in leadership, not the Senate.
    Mr. Barton. Oh, I thought we had passed it in the House.
    Mr. Shimkus. Not on the floor.
    Mr. Barton. I stand corrected. I can't blame that on the 
Senate, then.
    Mr. Shimkus. You can blame it on leadership.
    [Laughter.]
    Mr. Barton. I will.
    But Subcommittee Chairman Shimkus has been laboring, you 
know, very heroically to get some money appropriated so we 
could actually begin the review and hopefully the license of a 
permanent waste repository.
    I believe that's about $130 million. John, is that right?
    Mr. Shimkus. I am sorry?
    Mr. Barton. How much are we asking for to actually let 
high-level waste be reviewed: $150 million, $130 million?
    Mr. Shimkus. Well, in the fiscal year '18 it was $120 
million to DOE and $30 million to NRC, and then in fiscal year 
2019 it's $47.7 million for the NRC and another $120 million 
for DOE, I believe.
    Mr. Barton. It's fun to ask questions of the subcommittee 
while you guys are out there. Shows what a good subcommittee we 
have.
    In any event, my question to you, Madam Chairwoman: Does 
the NRC support Chairman Shimkus in his effort to actually get 
some real money appropriated so we can proceed with the review 
of a high-level waste permanent repository?
    Ms. Svinicki. The NRC has requested funding in our budget 
for fiscal years 2018 and 2019 to resume these activities.
    Mr. Barton. So that's a yes.
    Ms. Svinicki. But as an independent safety regulator, we 
have not taken a policy position on the pending legislation.
    Mr. Barton. Well, I take that as a yes.
    I am going to yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes his gentleman from Pennsylvania, 
Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. I want to thank you and 
the ranking members of the committee for holding this hearing 
today.
    As many on this committee know, I am a strong supporter of 
nuclear energy. I am greatly concerned by the dramatic increase 
in plant retirements or announced retirements in the last few 
years.
    Prior to three plants retiring in 2013, no reactors had 
retired since 1998. We then faced another round of retirements 
and are now staring down eight more announced retirements 
starting in October 2018 and through the summer of 2025.
    These retirements represent a loss of reliable and 
affordable electricity and family-supporting jobs, and it's not 
like the demand for thousands and thousands of megawatts these 
plants provide disappears.
    As the Energy Information Administration explains, the vast 
majority of this lost generation has been replaced with either 
coal or natural gas, and it seems very likely that that trend 
will continue into the future.
    As I said at our nuclear infrastructure hearing in 
February, it's imperative that we maintain or even bolster our 
nuclear fleet here to adequately address climate change, and I 
hope our committee pursues greater action on the issue in the 
future.
    Madam Chairman, let me ask you, and I want to follow up on 
one of the responses that you provided on an important question 
from Representative Green regarding the NRC's fee structure.
    There are bipartisan legislative proposals in both the 
House and Senate that provide a backstop for fees that NRC 
could collect from each plant.
    I would think that with increased appropriations, if 
necessary, this would provide greater certainty to your agency 
as well.
    Otherwise, I fear the NRC may face the situation where the 
dramatic drop in plants from which you can collect fees 
jeopardizes your agency's ability to generate a sufficient 
operating budget without being overly draconian.
    I think many could see this as becoming a downward spiral. 
Chairman, let me ask you: Do you think our committee should 
pursue or consider changing the NRC's fee structure to make it 
more sustainable both for the NRC and the individual plants?
    Ms. Svinicki. Our Commission hasn't established a position 
on this. But speaking as a 10-year member of the Commission and 
answering for myself, I would note that the potential wave of 
retirements is noticeable and appreciable, and although I don't 
know at what point the number of operating reactors has 
diminished so far that the 90 percent fee recovery is not 
sustainable, I think that the predicted number of potential 
shutdowns does make this a timely issue for the Commission and 
the Congress to engage on a dialogue on this matter.
    Again, the 90 percent recovery is a provision of law. So, 
if it is something that looks like it is having an unintended 
consequence or an unsupportable effect, it would be, in my 
view, appropriate for the Commission and your committee to 
examine the question.
    Mr. Doyle. OK. Thank you.
    Let me ask you some efficiency questions, too. Your 
testimony highlighted the NRC's recent announcement 
establishing of a transformation team that would, in your 
words, seek to identify potential transformative changes to the 
NRC's regulatory framework, culture, and infrastructure.
    Do you have a time line as to when we could expect those 
proposals, and what type of changes can we anticipate?
    Ms. Svinicki. Transformation is meant to encompass not just 
a small, easily implementable change, which we are terming more 
an innovation than a transformation.
    The team that's been chartered to look at the proposals I 
believe has in excess of 500 or 600 proposals now pending. 
Those come from both inside the agency, but they've also 
engaged broadly on transformative and innovative organizations.
    So the Commission is scheduled to receive a set of 
recommendations in May. But I think that the amount of 
proposals that have been generated may make the staff want to 
have a little more time to evaluate those, and then we would 
take the proposals and recommendations they make to us out of 
that process and consider those after we receive them in May.
    But, again, I am trying maybe to signal a little bit of 
opening for relief with the staff. I think it would be 
difficult for them to look at 500 or 600 ideas in the amount of 
time that they have.
    Mr. Doyle. Yes, I can appreciate that.
    Mr. Chairman, thank you. I am going to yield back my time.
    Mr. Shimkus. Would the gentleman yield his last 26 seconds?
    Mr. Doyle. Yes, sure.
    Mr. Shimkus. When the payments are made to utilities based 
upon the nonperformance of the Government, where does that 
money come from? Do we know?
    Ms. Svinicki. This is perilous, because this is my memory 
of the court's decision. I thought they suspended the 
collection from the ratepayers----
    Mr. Shimkus. They did.
    Ms. Svinicki [continuing]. So that the utilities are not 
receiving any revenues, because their request of the court was 
to be allowed to suspend the recovery of it from consumers.
    Mr. Shimkus. Anyone else can answer that.
    Mr. Baran. You're talking about the litigation piece?
    Ms. Svinicki. Oh. Oh.
    Mr. Shimkus. Right.
    Mr. Baran. That comes from the judgment fund.
    Mr. Shimkus. And the judgment fund----
    Mr. Baran. Is taxpayer funds.
    Mr. Shimkus. OK. Thank you. With that, I thank my 
colleague.
    Chair now recognizes the gentleman from Texas, Mr. Olson, 
for 5 minutes.
    Mr. Olson. I thank the Chair, and welcome to our three 
witnesses.
    This first question is for you, Chairman Svinicki, and you, 
Commissioner Burns.
    Last August, the NRC issued a press release announcing it 
was going to conduct a review of, quote, ``past administrative 
regulations,'' unquote, to find any that are outdated or 
duplicative.
    That was supposed to start in the fall of 2017. However, I 
haven't heard anything about that since then. So my question 
is, Will either of you talk about, first, why reviewing these 
regulations is important for an industry that is struggling, 
and number two, is there an update on time we can inspect this 
report and move forward?
    Chairman, you first, ma'am.
    Ms. Svinicki. I will begin. Thank you.
    I think that the voting has moved along on that proposal, 
and I believe that mine may be the lagging vote to complete the 
Commission's deliberation on the matter.
    It is still under review by the Commission in terms of the 
Federal Register notice and other underlying things that would 
kick off that review. So it is still contemplated, and I 
suspect it would move forward in the coming months.
    Mr. Olson. Mr. Burns, do you want to add something to that, 
too?
    Mr. Burns. Yes. What I would add, one of the things that--
this was an issue that came to my attention when I was a 
Chairman, and how it came up is, you know, drop-in visits from 
utilities, interactions I had at conferences and things like 
that, and it's--the question of there may well be in terms of 
some of the administrative reporting requirements going of the 
structure of them, for example, that might be more efficient, 
and I think that's what we are intending to look at.
    The example would be--and I can't pull, unfortunately, out 
of my head right now maybe a good example--but the idea was we 
are asking particular reporting requirements in an age--like, 
when I began at the agency, we didn't work through the 
internet.
    We worked through--fax machines was the technology of the, 
you know, of the day. So some of those types of things--how you 
can report--you know, what you need to report.
    It's not that reporting is bad or doesn't need to be done 
but can you do it more efficiently, you know, through 
electronic communication--are there duplications and things 
like that? That's the type of thing I think I would like to get 
at.
    Mr. Olson. Thank you.
    The final question is for all three of you. There have been 
some situations where disagreements between headquarters and 
the NRC region have resulted in NRC being unable to make timely 
decisions to provide necessary certainty to licensees.
    In one case, a licensee chose to shut down the reactor 
because headquarters in the regions were at an impasse. What's 
the process for resolving these disagreements between 
headquarters and the regions to ensure that timely decisions 
are made and the licensees are provided regulatory certainty?
    Ms. Svinicki. The NRC is obligated to provide clarity and 
give timely decisions. We are also obligated to implement a 
cohesive and coherent program across the United States so that 
a regulatory outcome in one region would be the same outcome in 
another region.
    Like any large organization, this requires very effective 
and continuous communications between the agency's very senior 
executives, the Commission, and a faithful execution of our 
regulatory framework across the country.
    Are we perfect? No, although I don't recognize the specific 
incident you allude to.
    This is something that both our inspector general and the 
Government Accountability Office occasionally audit for us, and 
we do look at the consistency of the findings and regulatory 
outcomes across the country.
    But there are a lot of inspectors and a lot of individuals 
in the loop. Again, the basic process is escalation through 
management, through executives and the agency, and then coming 
to one unified decision.
    Mr. Olson. Mr. Baran, very quickly, I have 48 seconds left 
to add something to the Chairwoman's comments.
    Mr. Baran. No, I think she covered it very well.
    Mr. Burns. I agree.
    Mr. Olson. OK. And one final point of observation.
    Chairwoman, congratulations. Your Michigan beat my 
University of Houston Cougars in the NCAA finals--going to the 
Final Four. But they'll play another Texas team, and pretty 
quick you will hear from Mr. Flores about his Aggies. So I 
yield back.
    Ms. Svinicki. Thank you. I wondered if I might hear 
something while Chairman Upton was in the room but----
    [Laughter.]
    Mr. Shimkus. Oh, I hope the gentleman's yielding back his 
time.
    Mr. Olson. I yield back.
    Mr. Shimkus. The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from California I 
would like to personally thank for all her work on this issue, 
for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman.
    As I outlined earlier, I am extremely supportive of efforts 
to transfer our country's civilian-spent nuclear fuel to a 
consolidated storage facility. Communities across the country, 
including those near the former Rancho Seco Nuclear Generating 
Station in Sacramento County, have been waiting decades for a 
spent fuel storage solution.
    And I have to also thank Chairman Shimkus' willingness to 
work together on these spent fuel issues. We were able to make 
real progress as his Nuclear Waste Policy Amendments Act moved 
through this committee, and I continue to support our 
compromise that was included in the bill.
    Chairwoman Svinicki--is that right?--can you please tell us 
more about the consolidated interim storage facility licensing 
process generally? What do you look for in an application? How 
is it evaluated?
    Ms. Svinicki. Thank you for that question, Representative 
Matsui.
    As you noted in your earlier remarks, the agency--the NRC--
has one current and one suspended review in front of us for the 
development of consolidated interim storage facilities.
    There is a facility contemplated in New Mexico, and the 
contractor is Holtec. We have docketed that application for 
review, and the review is ongoing.
    In general, it's our estimate that it would take 
approximately 3 years to conduct this type of review. We have 
some experience. In the 1990s, there was a similar proposal of 
private fuel storage in Utah.
    However, we issued the license as an agency, but the 
facility was never developed. But, again, to return to the two 
active contemplated facilities, the first is the Holtec 
facility in New Mexico.
    The other is in Texas and it is Waste Control Specialists. 
That review was suspended at request of waste control 
specialists. Their company is undergoing a merger or 
acquisition.
    I am not--so it may be an acquisition. The new owner, 
although that process is ongoing, has indicated that they will 
be making a communication to the NRC regarding that suspended 
review.
    We don't know exactly what form that would take. They, of 
course, have the option of modifying or withdrawing that and 
submitting something different.
    So, if they were to just ask us to reactivate the review 
that is suspended, that is something that could be more readily 
done.
    If they want to modify or significantly alter the proposal, 
then we would just have to wait to see what our estimate of the 
time to review it would be.
    Ms. Matsui. OK. If you take the first step there, what are 
your next steps in the licensing process if you restart this?
    Ms. Svinicki. The general process involves both a 
comprehensive safety review, and a separate team of 
environmental experts will conduct a review of any 
environmental impacts of the facility or the proposed action.
    Those proceed in parallel tracks and so there is some 
synergy and expertise between those two teams, and we develop a 
safety evaluation report and then an environmental review and 
those are the basic products that come out of our review.
    We are looking for no negative impacts on public health and 
safety and in accordance with storage and transportation 
regulations that we have that are very well established.
    Ms. Matsui. Can you outline some of the differences between 
the facilities envisioned by the two applications?
    Ms. Svinicki. I think, in general, they are very similar, 
much more similar than they are different, and there may be 
some differences in the way that they've structured how they 
intend to operate or the fuel that they would take. But I would 
need to respond with those details, for the record.
    Ms. Matsui. OK. Certainly.
    And as I said earlier, I am pleased to see that you 
requested adequate funding to be able to consider both the WCS 
and the Holtec license request in fiscal year 2019.
    It's critical that we move forward with both licensing 
process at the same time in order to maximize our chances of 
really reaching a viable interim storage solution that reduces 
the burden on taxpayers.
    What constraints on licensing are you facing at your 
current funding level?
    Ms. Svinicki. You're correct that we have requested funding 
in fiscal year 2019 for two reviews. I would also note that, 
although we do not have an enacted level for fiscal year 2018, 
yet we do have funding in there for two, as well.
    Even though the one is suspended, we provided a budget 
flexibility so that, if it were resumed, we would be able to 
begin that in the current fiscal year.
    So we are not aware that we have any shortfalls in those 
requested amounts.
    Ms. Matsui. OK. Fine, and thank you very much, and I 
appreciate--I yield back.
    Mr. Shimkus. Gentlelady yields back her time.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thanks to our Commissioners for being with us today.
    The NRC's fiscal year 2019 budget request includes about 
$10 million to develop the regulatory framework for advanced 
nuclear technologies.
    While the NRC is required to recover about 90 percent of 
its budget from fees charged to licensees, the Commission is 
allowed to request certain funding to be appropriated by 
Congress outside of the fee base.
    Though I would note the Advanced Nuclear Technology 
Development Act, which I sponsored and was unanimously passed 
by the House in January of this year, provides--or last year, 
excuse me--provides for this funding to be exempt from the fee 
recovery base.
    Similar to that provision, in my legislation, NRC's budget 
request for this funding in previous years provided for a 
direct congressional appropriation.
    Would any of you like to address why the source of this 
funding from off the fee base that's subject to fee recovery 
has changed from the previous years?
    Ms. Svinicki. Thank you for that question, and I realize 
that Congress has indicated a willingness to provide direct 
appropriated funds instead of recovering this from the fee 
base.
    I would observe, perhaps commensurate with the continued 
work that we are doing on advanced reactors, it is our 
projection that in fiscal year 2019 we may have actual 
submittals of designs for review.
    And so some of the thinking about having it be in the fee 
base is that we do try to allocate and recover costs from a 
company if the costs are directly attributable to that company.
    So in fiscal year 2019 is the earliest date at which we 
think we may have a company come in with an actual design 
submittals.
    Mr. Latta. OK. Just to clarify--just to make sure of that--
so that you would support my legislation which would amend the 
underlying statute to clarify the source of the funding to 
develop a regulatory framework for that advanced nuclear 
technology?
    Ms. Svinicki. Our Commission has no policy view, but as a 
member of the Commission, not as Chairman, I would indicate 
that the funding that is provided off fee base has been, I 
think, advantageous because developers will come in and engage 
the NRC if they know that they're not going to receive an 
invoice every time they want to come in and learn more about 
the regulatory framework or perhaps float a concept of a design 
attribute that they're worried that we would never license.
    And so Congress' support of money off the fee base, I 
think, is generating a regulatory efficiency because the 
technology developers are more likely to come in and get early 
regulatory engagement, and I think it's also helping us that, 
when we get a design, we'll know a lot more about it.
    Mr. Latta. Thank you.
    Use of the digital instrumentation and control, or digital 
I&C technology, is of growing importance for the current 
nuclear fleet and the next generation of reactors.
    This technology can enhance safety, reliability, and 
efficiency while replacing obsolete analog components. Many 
licensees are not pursuing modifications that implement digital 
technology due to uncertain regulatory approaches and 
associated challenges.
    For new plants, the uncertainty risks the promise of 
advanced digital I&C systems will not be accomplished.
    To address these issues, industry has formed a digital I&C 
working group to engage industry experts with the NRC staff to 
resolve high-priority technical issues, improve the regulatory 
infrastructure, and facilitate efficient implementation of DI&C 
projects.
    Madam Chairman, in reality, as a number of our nuclear 
reactor facilities have passed 4 years of operations, much of 
the technology still being used in these facilities can be 
dated back to World War II.
    Do you believe that updating these systems and components 
to digital technology is important to sustaining these 
facilities?
    Ms. Svinicki. Yes. The obsolescence issues in the supply 
chain are very real, and it is not only important, I think it 
will be essential for the NRC to develop a working framework 
for the adoption of digital I&C technologies.
    Mr. Latta. Thank you.
    Commissioner Burns, do you believe there is an obligation 
to acknowledge potential safety benefits with increased usage 
of digital controls, and how do you view these benefits can be 
represented in NRC's regulatory regime?
    Mr. Burns. Yes, I would agree that the newer digital 
controls have benefits. I've seen that from when I've gone to 
power plants, in terms of areas where they have been able to 
implement it.
    What we have to do, which I think--what our Chairman was 
alluding to is, we need to keep on our staff in terms of 
working with the industry in terms of getting over some of the 
humps, if you will, that become some barriers toward better 
integration on some of these systems.
    I think we are seeing it in the new technologies. It's been 
a lot in terms of, as you noted, the retrofitting onto what 
were originally analog systems and getting more digital systems 
in there.
    But it's something I am certainly in favor of us continuing 
to work on.
    Mr. Latta. Thank you very much.
    Mr. Chairman, my time has expired, and I yield back.
    Mr. Shimkus. Gentleman yields back the time.
    Chair now recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. I thank the chairman, and I thank the 
Commissioners for your work.
    Last year, Secretary Perry issued a proposed rule that 
power plants that have long-term fuel storage have a financial 
advantage over those that don't. That was overturned by the 
FERC.
    Do you think that was a good idea, each one of you, given 
the financial crunch that nuclear plants are facing? Starting 
with the Chairman.
    Ms. Svinicki. Our Commission was not involved in that, and 
we are not economic regulators like our colleagues at the 
Federal Energy Regulatory Commission.
    Candidly, even as a personal matter, this is outside my 
realm of expertise.
    Mr. McNerney. Secretary?
    Mr. Baran. This is pretty far outside NRC's mission here. 
We leave this to FERC.
    Mr. Burns. Right.
    Mr. McNerney. OK. Well, the next question was, Do you think 
the traditional nuclear power plant is viable, moving into the 
future, you know, in terms of economics? Do you think they're 
going to be viable?
    Ms. Svinicki. My understanding, again--and I don't have 
access to any proprietary business information, I read the same 
reporting as others do--but some of the units in the regions 
where they operate are operating at kind of breathtaking losses 
and are not economic.
    Others operate in other markets in the country and have 
other regulatory rate recovery mechanisms--that they are 
profitable. So it appears to be a very geographic situation.
    Mr. McNerney. OK. That's interesting.
    Do you think the new technology is going to be more 
economic than the older technology like the small modular 
reactors? Any----
    Ms. Svinicki. It's difficult to say by their design 
attributes. They appear to preliminarily offer certain 
efficiencies, but I think the competitiveness of this 
technology in the market is dependent on natural gas prices and 
other things into the future that I am not really even expert 
on.
    Mr. McNerney. All right. I will change the subject.
    You know, local buy-in is critical, in my opinion, for a 
nuclear waste repository.
    How much chance is there for a local buy-in in Yucca 
Mountain? Whoever wants to answer that.
    Mr. Shimkus. The gentleman needs to define ``local.''
    Mr. McNerney. Well, I would say the State of Nevada. Is 
that State of Nevada going to tolerate moving forward with the 
Yucca Mountain storage facility?
    Ms. Svinicki. Well, again, we are the independent licensing 
body that would make the ultimate determinations on issuance of 
a license.
    So the State of Nevada, many Nevada counties and also 
California counties are parties to that licensing proceeding, 
and we are the quasi-judicial body over that. So I think it's 
perilous for us to opine on that.
    Mr. McNerney. OK. Well, in my opinion, again, complete 
transparency is absolutely necessary for a long-term storage 
repository to be accepted.
    What is the NRC doing to make sure that there's 
transparency in these sorts of deliberations?
    Ms. Svinicki. Well, I would note that the adjudicatory 
proceeding has, gosh, I think maybe two dozen admitted 
parties--that those proceedings are all conducted publicly. 
There are over 300 specific challenges issued that will be 
adjudicated if that is funded and that adjudication occurs.
    So, again, that is a public licensing proceeding where all 
of these matters in contention or challenged would be litigated 
in a very public forum.
    Mr. Baran. I would just add, if the adjudication resumes, I 
think it's essential for NRC to hold the hearings in Nevada 
close to where many interested stakeholders are located.
    That's been NRC's longstanding policy, that if you have a 
contested adjudication that it be held, you know, as close as 
to the vicinity of the proposed facility.
    There's, obviously, very high public interest in this 
proceeding if it were to resume. So my view is it's very 
important that those hearings be held in Nevada.
    Mr. McNerney. Are there any other sites around the country 
that are being considered, and if there are, are you reaching 
out, you know, in advance to get local interest and buy-in?
    Mr. Burns. No, because the law requires us to consider the 
Yucca Mountain application. That was the consequence of the 
1987 Amendments Act, which focuses on Yucca. So we are not 
authorized to go look at other sites, at this point.
    Mr. McNerney. But wasn't the Nevada site also held up--I 
mean, if you're not allowed to do it by law elsewhere and 
you're not allowed to do it in Nevada, what choices are there?
    Mr. Burns. No, the Waste Policy Amendments Act 1987 
directed the NRC and I think also DOE to focus on the Yucca 
Mountain site.
    So that's why the efforts that have gone on that eventually 
led to an application in the mid-2000s focused on Yucca.
    Mr. McNerney. I yield my time, Mr. Chairman.
    Mr. Shimkus. They are correct. The gentleman yields back 
his time.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Kinzinger for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman, and I want to thank 
all of you for being here. Thanks for being at our hearing.
    You know, I think it's unbelievable that we are still 
talking about Yucca Mountain years and years later, and 
people's opposition to it is based on witch science, you know, 
and concerns and it's the law and it's the right thing to do 
and anyway--but my district is home to four nuclear power 
plants, in Byron, Braidwood, Dresden, and LaSalle. It's the 
most of any district in the country.
    Meaning that the work you all do is vital not only to the 
safety of these communities but also to my constituents who 
work in these plants, pay their utility bills, and especially 
in Illinois rely on nuclear power to power their homes and 
businesses no matter the weather. Fifty percent of power is, in 
fact, nuclear in Illinois.
    H.R. 1320, which I sponsored with Representative Doyle, 
includes language to control corporate overhead costs and keep 
them in line with other Federal agencies.
    I am concerned about a lack of transparency and 
accountability in the corporate support budget proposal, 
because these costs are passed along to ratepayers, including 
my constituents, through charges that the NRC charges to the 
NRC licensees.
    Specifically, the fiscal year 2019 budget requests an 
increase of $1.5 million for corporate support, even though 
staff is decreasing by 108.
    The justification states the increase is a result of salary 
and benefit growth, increases for ITS at management, 
operations, maintenance, and security of core IT systems, and 
targeted investment and development and modernization efforts.
    However, there's no details or support in the budget. To 
the Chairman, can you explain in more detail why there's an 
increase in corporate support costs?
    Ms. Svinicki. Thank you, Representative Kinzinger.
    In general, you have described the areas that are causing 
the increase, and if we have not provided a detail, perhaps we 
can work with your staff after the hearing to provide some 
fuller supplementing detail on this.
    I would note that the cost of living--the percentage 
increases that have been funded in general agencies have been 
asked to find those within existing budgets.
    Also, as our workforce gets smaller, it tends to be older 
employees do stay with the agency and they received certain 
higher levels of seniority.
    Also, the benefits part of salary and benefits for every 
Federal employee with increases in healthcare costs, there is 
some escalation in that figure year to year due to rising 
healthcare costs.
    Also, the NRC does have, as part of Governmentwide IT 
modernization, we have some unsupported platforms for various 
agency IT systems.
    I know we report to other committees of the House regarding 
our overall IT modernization and also the securing of those 
systems against cyber threats, and there are increasing costs 
throughout the Government related to those matters.
    I think in general those are the nature of the expenses 
that caused the increase in the fiscal year 2019 budget.
    Mr. Kinzinger. I see. I just think--you know, the important 
point I want to make is, obviously, continue to take tangible 
steps to maintain discipline on that, as you know.
    It's Congress' responsibility to regularly review statutory 
authority and, when appropriate, to make updates reflecting our 
changing world.
    For example, the outlook for global nuclear power is 
fundamentally different from when Congress first allowed the 
use of peaceful atomic energy in 1954 or established the NRC in 
1974. Congress hasn't completed a comprehensive reauthorization 
of the NRC in over 30 years.
    To the Chairman, are there legacy provisions, including the 
foreign ownership control or domination restrictions or the 
required advisory committee or reactor safeguards, that warrant 
revisiting by Congress?
    Ms. Svinicki. As a general matter, it is useful to revisit 
a statute, although I would note that I continue to be 
impressed with the wisdom that is enshrined in the Atomic 
Energy Act.
    I think, for a statute as old as it is, there was a lot of 
foresight on having, you know, technology, flexibility, and 
things like that.
    But there are the many intervening decades of experience in 
the United State nuclear power program in general. The 
technology is understood at a vastly deeper level now, and 
there are also many, many operating reactor years and decades 
worth of experience.
    So I think that relooking at what the smart individuals in 
the 1950s thought is probably a worthwhile endeavor.
    Mr. Kinzinger. Thank you.
    I think it's important to note, you know, I think the 
United States is losing or has lost its edge in nuclear power 
and we've given it to other countries, and that's a big problem 
and something that I think we need to address wholeheartedly.
    And lastly, to Commissioner Burns: Are there other areas 
Congress should examine, given the state of nuclear energy 
today, in your mind?
    Mr. Burns. Going back to your question on the Atomic Energy 
Act, I appreciate in your bill you noted a couple areas where I 
thought were worth looking at, in terms of foreign ownership in 
a mandatory hearing.
    I agree with Chairman Svinicki. One of the, I think, the 
beauties of the Atomic Energy Act is the flexibility that 
allows the Commission to adapt over time.
    So there's some of these that are legacy provisions--
mandatory hearing provisions, for example just because I was 
doing some research earlier this year on it. It was really 
actually a punishment of the Atomic Energy Commission for a 
lack of transparency.
    It actually imposed it both at the construction permit and 
operating license level, and it was because the AEC wasn't 
transparent about its licensing. I think we've come a long way 
since 1957 and then 1962 on that.
    Mr. Kinzinger. Thank you, and I yield back, Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the gentleman from Vermont, Mr. Welch, 
for 5 minutes.
    Mr. Welch. Thank you very much, and I thank the 
Commissioners.
    My concern that I want to address is decommissioning. In 
Vermont, Vermont Yankee, located in southern Vermont right on 
the Massachusetts and New Hampshire border, was one of the 
first--I think the first merchant plant to be decommissioned.
    So we are sort of at the tip of this spear addressing the 
combination of issues between the industry that has to shut 
that down and the local and State communities that want to have 
a say in the process.
    And over the course of the last couple of years, Senator 
Sanders and Senator Leahy and I, on behalf of Vermonters, have 
been raising some questions that we want included in 
rulemaking:
    One, the lack of State and local stakeholder involvement in 
the decommissioning process is a concern.
    Two, the questionable uses of the decommissioning trust 
fund, such as for spent fuel management, is a recurring issue 
at the Vernon plant.
    Three, the reality that the use of safe stored 
decommissioning procedure will effectively delay the cleanup in 
the redevelopment of the nuclear site for decades is a big 
issue for us. We'd like to put that place back into operation, 
sooner rather than later.
    And then four, the reduction of emergency planning 
functions during periods when spent fuel remains are in spent 
fuel pools. That's an ongoing concern.
    That's an issue for us in Vermont. But as more and more 
plants are going offline, that's going to be an issue for them, 
as well.
    And the questions that I wanted to start asking about were 
on the rulemaking process, and in the initial phases of this it 
appeared that the NRC in fact was paying attention to many of 
those concerns that I just cited, but there's been a tug of war 
in the process, and the industry concerns appear to me, and I 
think to Senator Leahy and Senator Sanders, to be paramount.
    They want flexibility on some of the safety issues, but 
they really are resistant to the four issues that I mentioned.
    So that's of real concern to us, and not just to us, 
because this, as I mentioned, is going to be relevant for all 
these other plants that are going to get decommissioned.
    So I will start, Madam Chair, with you, if you would. Do 
you believe that State and local stakeholder concerns should be 
considered on equal footing with those of the industry and 
believe that a final decommissioning rule that codifies 
regulatory and safety exemptions that industry has requested 
but don't address concerns over the use of the decommissioning 
trust fund, the local input in the postshutdown rules, would be 
problematic? We'd like both included.
    Ms. Svinicki. Congressman, thank you for this question, and 
you and the people you represent have been very, very active in 
the rulemaking process.
    The stage we are at right now is that the NRC staff has 
developed a regulatory basis, and they will begin the process 
of developing a proposed rule to come before our Commission.
    My approach as a member of the Commission is to look at the 
totality of the public comment record, and I don't look at who 
sent the comment.
    I look at the underlying matter that the comment is 
raising, and I look to make sure that the agency is responsive 
to that comment.
    So I don't want to prejudge where I would be on a proposed 
rule that hasn't come before me yet. But as part of my review, 
I will certainly look at that.
    Mr. Welch. No, I understand you can't prejudge it. But we'd 
really want some assurance that the local concerns have a seat 
at the table. That's really the bottom line of what we want, 
and there's a tug of war because the industry concerns are 
sometimes different.
    They want to get out sooner rather than later, and the 
local community wants that property back in service and, 
obviously, concerned about the decommissioning fund.
    Mr. Baran, can you tell me what opportunity State and local 
stakeholders will have over the coming year to weigh in on the 
decommissioning rulemaking?
    Mr. Baran. Sure. Well, the main opportunity--there have 
been two periods of public comment to date, and as the Chairman 
mentioned, we got a couple hundred comments.
    I looked at them all, and you're right--States and local 
governments are very engaged on this issue. They want to be 
heard. The next big opportunity will be when the proposed rule 
is prepared.
    The Commission will vote on a proposed rule and that'll go 
out for public comment, and that'll be the first time that 
stakeholders will have an opportunity to look at what is it 
that the agency is proposing to do and what is their reaction 
to that.
    Mr. Welch. All right. Thank you.
    Mr. Burns, thanks for your work over the years. This basic 
request that our communities have to be at the table as a full 
and equal partner?
    Mr. Burns. I would agree with what my colleagues have said. 
I think, as the proposed rulemaking comes before us, one of the 
things I am going to look at is some of those process issues as 
well as the substantive issues about, you know, what does 
safety demand, and assuring that we have clarity on things like 
the decommissioning trust funds.
    You know, it's interesting. We had a good meeting I think 
about a year or two ago. We had--one of the representatives 
from the Citizens Advisory Committee from Vermont was there, 
and heard her there.
    Some of these things, I think, will be regulatory 
solutions. Some of them are going to be the interactions within 
the States themselves. But I do think it's important that the 
voices are all heard.
    Mr. Flores [presiding]. Gentleman's time has expired.
    Mr. Johnson, you're recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I thank the 
Commissioners for being with us today.
    The last time that you were here before this committee 2 
years ago, I expressed concern then about the regulatory creep 
associated with what is known as application of the back-fit 
rule.
    This authority is one of the most powerful regulatory tools 
at NRC's disposal, which is why it is critically important, in 
my view, that the Commission is vigilant about the staff's use 
of the back-fit rule.
    So in regards to the committee to review generic 
requirements, since your last appearance here, NRC was in the 
process of providing new guidance to what is known as the 
CRGR--the Committee to Review Generic Requirements.
    This committee, composed of senior NRC staff, is intended 
to review these back-fit requirements, which are regulatory 
requirements imposed on all nuclear power reactors.
    So Commissioner Burns, under your leadership as Chairman, 
CRGR was directed to update its charter and revise its review 
procedures. Has CRGR issued its revised charter and, if so, 
what are the principal updates to the document?
     Mr. Burns. Yes. I believe that they have. I am not 
familiar with all the details of it but, clearly, at the time 
one of the things that I was looking for--and I had the support 
of my Commission colleagues at the time--was to reinfuse some 
vigor in the CRGR process, also to provide some more 
consistency across the agency, particularly in the staff, 
because on a day-to-day basis that's where things are going to 
happen about consistency in the back-fitting process.
    Mr. Johnson. And you are still----
    Mr. Burns. But we can probably provide for the record, you 
know, the specific things that would help answer you.
    Mr. Johnson. OK. Yes, please do. You are still the leader--
I mean, the chairman of the CRGR, right?
    Mr. Burns. No, no. I am not the--actually never been the 
chair. The head of the CRGR is a senior staff executive.
    Mr. Johnson. How often do they meet?
    Mr. Burns. I don't know how often. Ed Hackett, who is 
deputy director for research, is the current chair of the CRGR.
    Mr. Johnson. How do they report to you guys on what their 
status is, as the Commissioners?
    Ms. Svinicki. They report to the executive director for 
operations, but they also provide routine reporting on a number 
of their activities.
    They may meet as needed to review a proposed regulatory 
measure. But, again, we can provide greater clarity for the 
record.
    Mr. Johnson. OK. Thank you.
    Chairman Svinicki, what are the next steps for CRGR to 
enhance its role to review and approve, or disapprove, staff's 
proposed back-fits?
    Ms. Svinicki. Since the Commission last appeared before 
you, Congressman, and engaged on this issue, the agency's 
return to greater adherence and fidelity on back-fit moved far 
beyond the CRGR.
    Although we have undertaken the measures that you 
described, it became apparent in the reviews ordered by the 
executive director for operations that comprehensive retraining 
was needed of agency staff.
    That has been conducted and, again, we are not changing the 
back-fit rule. We realized that with the amount of staff growth 
and staff turnover we had had that we needed regular training 
on adherence to the back-fit rule, and there will even be, I 
believe, a wave of follow-on training that is going to occur.
    So there certainly has been a higher spotlight on adherence 
to back-fits since we last appeared before you.
    Mr. Johnson. OK. All right.
    Recent guidance from Office of General Counsel which has 
been endorsed by the Commission states that, when the NRC staff 
identifies back-fitting, it should first consider whether one 
of the adequate protection exemptions apply to the back-fit in 
question.
    So, Chairman Svinicki and Commissioner Burns, given the 
maturity of the NRC's regulatory framework, would you agree 
that situations requiring imposition of back-fits should be 
relatively rare and would typically require significant new 
information indicating that a safety issue is not adequately 
addressed by the Commission's current regulations?
    Ms. Svinicki. As a member of the Commission, I am in 
agreement with that statement. That would be, I think, a 
reasonable description of the maturity of adequate protection 
determinations that have been previously made.
    However, there can't always be new knowledge, as you note, 
and so I would say, as a member of the Commission, any time the 
staff is contemplating an adequate protection exemption to the 
back-fit rule, that gets my attention very closely for the 
reasons you state.
    Mr. Johnson. OK. All right.
    Mr. Chairman, I yield back.
    Mr. Flores. The gentleman yields back.
    Mr. Cardenas, you're recognized for 5 minutes.
    Mr. Cardenas. Thank you very much. Appreciate the 
opportunity to have this discourse, Commissioners.
    My question is to whichever Commissioner wants to answer 
the question regarding the potential elimination of 149 full-
time equivalent employee positions.
    If that were to take place by the design of the Commission, 
if that's a fact, would there be more or less scientists 
involved, going forward, than are today, overall?
    Are we talking about positions that are in the science 
arena or the technical folk? Are we talking about tertiary 
positions?
    Where would the crux of those 149 or so positions come 
from?
    Ms. Svinicki. Let me begin by stating there is no 
contemplated involuntary separation or reduction of employees 
that we contemplate now.
    The figures may have to do with--if they arise from the 
fiscal 2019 budget. We have areas of work that are completing 
this year, and so it really isn't individual employees that are 
on board right now.
    The figures vary up and down, depending on the licensing 
work that we project to have before us in the 2019 budget. So 
it is not that we've identified positions for elimination.
    Mr. Cardenas. OK. So we are talking about positions that 
are basically having to do with the work structure in the past 
and present and going forward, and a better structure for the 
department?
    Ms. Svinicki. Yes, that's correct.
    Mr. Cardenas. OK. Thank you.
    Aside from that, how is the department doing when it comes 
to recruiting today's technical folks that the department needs 
to fill the positions that would be ongoing? How is that 
environment today?
    Ms. Svinicki. Well, I will say that you identify, I think, 
one of the greatest challenges for Federal agencies, and that 
is making certain that we are preparing ourselves for the 
future by bringing in the promising new entrants, recent 
college graduates.
    Again, under a declining workload for our agency, we are 
not as active out with colleges and universities and 
recruitment. We do that only on a very, very targeted basis as 
we have attrition of people from positions.
    So we are, over time, becoming an organization that has 
more senior people at higher pay grades, and we do pay 
attention to making sure that we are at least bringing some 
newer employees into the pipeline.
    But, again, our work in general has been declining, and the 
opportunity to do that has been less.
    Mr. Baran. I would just add, you know, in a 2-year period 
the number of employees we had at the agency dropped by around 
12 percent, which is a really dramatic decline----
    Mr. Cardenas. That is.
    Mr. Baran [continuing]. For just a couple years. That was 
largely the result of attrition. So we have a certain number of 
people who are retiring each year, moving on, and pairing that 
with very, very limited external hiring during those years.
    Going forward, for the health of the agency we are going to 
have to have some extra hiring.
    Mr. Cardenas. OK.
    Mr. Baran. We are going to need to bring new talent to the 
agency. That's true for any organization. It's fine to have a 
period of a couple years where we just through attrition shrink 
pretty significantly. But for our long-term health, we are 
going to have to make sure we bring in new talent so that we 
have the capabilities we need 5, 10, 15, 20 years in the 
future.
    Mr. Cardenas. There is no question that there's probably 
not an industry in America that isn't affected by the baby 
boomer retirement bubble that we are going through right now.
    But at the same time, when I was in college, I was an 
engineering student. By the time I got my degree, I had done 
some internships with various great, great organizations that 
actually went out there and recruited students like myself.
    Are you able to focus on that kind of recruitment or, 
unfortunately, is it kind of like a hodgepodge of trying to 
pull together a little bit of resources to do so? Or is it a 
concerted effort to recruit some of that great talent out 
there, that new talent?
    Ms. Svinicki. I will note that we do continue to have a 
summer intern program. We get engineers and scientists and I 
believe maybe even have some legal interns or law clerks 
opportunities to prepare for the future.
    Again, it is commensurate with the projections that we will 
continue to have a declining workload. But I think, as 
Commissioner Baran notes, we continue to recognize the 
importance of having younger employees come into the pipeline.
    Mr. Cardenas. OK. Well, to the benefit of all of us who 
represent literally different parts of the country with 
different makeups, Mrs. Chairman, if we could get a report from 
the Commission on the program and how local communities can 
enlist and making sure that young people--young talented 
folks--can actually apply to these kinds of programs or, for 
example, the campuses that you are already involved in or the 
campuses that you'd like to be involved in--if there's some 
kind of blueprint or something that the--again, every single 
Member here represents a different part of America, and I am 
sure that we would like to make sure that the young talent from 
our communities certainly have an opportunity to enlist their 
talent with your organization.
    Ms. Svinicki. I think we can certainly provide more 
specifics for the record.
    Mr. Cardenas. Thank you, Mr. Chairman.
    I yield back.
    Mr. Flores. The gentleman yields back. I will recognize 
myself for 5 minutes.
    I thank the panel for joining us today and, to follow up on 
Mr. Olson's initial comments regarding the men's and women's 
Sweet Sixteens, I am proud to report my district has more teams 
than the others, with four.
    Anyway, let's get down to business. New technologies 
provide great promise to increase safety and performance from 
nuclear reactors while also affording increased efficiency and 
improving economic competitiveness.
    One of the critical path resources to get from here to 
there, though, is the NRC's qualification of advanced fuels, 
and I am concerned that our advanced nuclear community will be 
stifled at the outset if there's not clarity and predictability 
with respect to time lines for innovators and investors to have 
certainty that the NRC will allow new fuel compensation and 
design.
    So, Chairman Svinicki, what is the NRC doing to consider 
fundamental issues associated with qualifying advanced fuels?
    Ms. Svinicki. Thank you for the question, and this is a 
growing area of work for the industry and for our agency as a 
result.
    To begin with, in order to qualify a new fuel type, 
developers have to be able to have access to performance data, 
meaning if you have got new materials, new alloys, and new 
configurations, you need to be able to put what are called lead 
test assemblies in nuclear power reactors so that you can then 
harvest those as kind of samples and you can take performance 
data.
    We do have a number of utilities right now that either have 
inserted lead test assemblies for new fuel types or are in the 
process of documenting the safety of doing so. So that 
exploration of these lead test assemblies and development of 
the underlying data for new fuels is currently underway.
    Mr. Flores. OK. Thank you.
    Commissioner Burns, given your long experience with NRC and 
your having had a front-row seat for seeing technological 
advances, would you please describe your expectations with 
respect to having a predictable path for advanced fuel 
development?
    Mr. Burns. I would echo much of what the Chairman said.
    I think part of it for us, too, is assuring that the 
regulatory process is in a state that allows that to go 
forward.
    I will give a recent example. I think the staff, with 
respect to the ability of utilities to start testing advance or 
accident-tolerant fuels in terms of just the process of getting 
some lead test assemblies in there, has clarified its guidance 
and that's gelled, and those are the types of things. And in 
addition to the technology aspect, which is extraordinarily 
important, of course, that will help the process along.
    Mr. Flores. So you have talked about the real-world testing 
and existing reactors. What sort of advanced modeling and 
simulation and computational tools do you have to predict the 
behavior of these advanced fuels?
    Mr. Burns. I would have to defer to the staff and maybe 
forward the thing, unless the Chairman wanted to add.
    Ms. Svinicki. The NRC does not have as many tools as the 
U.S. Department of Energy. So, as a result, our experts in 
these areas have begun discussion with the Department of Energy 
regarding what tools they have and to what extent they could be 
made available for us to use in making safety determinations 
going forward.
    Now, as an independent safety regulator, we will want to 
have some measure of independent or confirmatory analysis that 
we will do. But it may be that the tools can be utilized by us 
to do that confirmatory work.
    I would say that those discussions are somewhat at the 
beginning stage.
    Mr. Flores. OK. Thank you.
    My district includes College Station, which is the home of 
Texas A&M University. The Aggies have an outstanding nuclear 
engineering program, and it partners with both the NRC and the 
Department of Energy to help train the next generation of 
nuclear engineers through congressionally funded education 
programs, principally through the Integrated University 
Program, or IUP.
    Unfortunately, once again, the NRC budget zeroes out this 
critical program. If that's the budget that ultimately comes to 
fruition--I don't think it will be, but if it does--where do we 
train the workforce of the future without the IUP?
    Chairman Svinicki.
    Ms. Svinicki. I will respond by stating that the 
Commission's failure to include that in the budget is so that 
our budget will adhere to administration policies regarding 
programs such as this.
    Having said that, I will state that we have derived great 
value from when Congress has provided funding. We have executed 
that program I think with a lot of energy behind it and made 
good use of the funding that Congress has provided previously.
    So it is not any indication on the value of it by this 
Commission.
    Mr. Flores. OK. That's helpful.
    My expectation is that Congress will continue to fund that 
program because, as you have stated, we've had good results in 
terms of an advanced nuclear workforce.
    I yield back the balance of my time.
    Mr. Duncan, you're recognized for--oh, I am sorry. OK.
    Mr. Hudson, you're recognized for 5 minutes.
    Mr. Hudson. I thank the chairman and thank the witnesses 
for being here today. Thank you for the good work you do.
    I represent Fort Bragg, the largest military installation 
in the world. I understand the importance of making sure that 
our troops have the necessary resources they need for the 
battlefield.
    A 2016 report from the Department of Defense's Defense 
Science Board concluded that, quote, ``There is an opportunity 
for expiration of the use of nuclear energy applications at 
forward and remote operating bases and expeditionary forces,'' 
end quote.
    These applications would result in first-of-a-kind 
deployment opportunities similar to how the Navy's deployment 
of nuclear reactors helped drive the construction and 
commercialization of existing fleet of nuclear power plants.
    However, for these advanced technologies to be successfully 
deployed, the NRC's regulatory regime and approved processes 
must be predictable and disciplined.
    One example of how the NRC manages what are known as 
requests for additional information, or RAIs: NRC staff uses 
RAIs frequently during its regulatory review, and GAO has noted 
the process can be time-consuming and costly.
    GAO reported the NRC staff and licensees identified two 
weaknesses in the RAI process: first, a gap between NRC's 
expectations and licensees' understanding of license 
application content, and second, staff departure from RAI 
guidance, which may result in redundant or unrelated questions 
and lead to additional time and resources required for 
licensees to address RAIs.
    Following GAO's review, NRC has updated its guidance, 
including increased management review and, as with the Office 
of Nuclear Regulatory Regulation efforts, to conduct onsite 
audits or a public meeting to reduce the number of RAIs.
    Chairwoman, I would like to ask you a few questions with 
respect to RAIs. How is NRC ensuring that staff are following 
the guidance? For example, is NRC tracking data on RAIs and, if 
so, has the new guidance reduced the number of RAIs?
    Ms. Svinicki. Thank you for the question, Congressman.
    There has been a focus on the discipline of the RAI 
process. In addition to the measure you noted, which is perhaps 
meeting with an applicant and getting greater clarity so that 
we could just completely reduce the need for certain questions 
to be asked, we also have instituted what are called job aids, 
and they are kind of checklists that are used by reviewers.
    And when it come to RAIs, that job aid mandates that they 
have to identify the regulatory determination that is supported 
by the request for additional information, meaning, if you're 
going to ask this question, what of the necessary findings does 
it feed into?
    And in some ways, there is enhanced management review. But 
a job aid such as that basically forces someone to take that 
into consideration. So it builds the discipline into the 
process, and the staff has thought of these measures which, 
again, I think are really helpful to both the analysts that are 
adhering to the new discipline on RAIs and they kind of keep 
the system in check.
    So it's those. But there is, as you said, enhanced 
management review, as well.
    Mr. Hudson. Makes a lot of sense.
    Can you provide updated RAI tracking information to the 
committee?
    Ms. Svinicki. I know we have been working to begin to 
collect that, and I am not sure how many months of data we have 
now. Could I provide to the record either data or a status 
update on getting those tracking systems in place?
    Mr. Hudson. That would be much appreciated.
    Do managers in the Offices of the Nuclear Reactor 
Regulation and New Reactors review additional rounds of RAIs, 
as GAO reported was the agency's intent?
    Ms. Svinicki. I believe that that is still occurring. I 
don't know to what extent. As we get the job aids and other 
measures in place, it may be that there isn't as much need for 
the direct review because, again, the checklists and process 
are basically forcing the new accountability and discipline. 
But we can provide that for the record.
    In early stages, there was management review of all 
subsequent rounds.
    Mr. Hudson. I appreciate that, and I would be very 
interested in knowing what you found during these reviews in 
both offices.
    So thank you very much for that.
    Mr. Chairman, unless any other witnesses would like to 
chime in--great. Well, thank you very much, Mr. Chairman. With 
that, I yield back.
    Mr. Flores. The gentleman yields back.
    Mr. Duncan, you're recognized for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman, and I thank the 
panelists for being here as long as you have.
    One thing about being a junior on this, you get to go last. 
All the groovy questions have been asked already, so we are 
going to reach into our tool chest here.
    First off, I want to encourage my friends over in the 
United States Senate to confirm a great South Carolinian to the 
NRC, and that's David Wright, and would be a great addition to 
the NRC.
    I want to lend my voice to--Mr. Shimkus and others have 
talked about Yucca Mountain and a need for a long-term, stable 
storage facility for nuclear waste.
    They have 40 years' worth of nuclear waste sitting at the 
Oconee nuclear station on the beautiful shores of Lake Kilwee, 
and that's just one nuclear reactor or nuclear power plant in 
the country that has nuclear waste stored onsite either in dry 
cask or wet cask storage.
    And we could throw in Savannah River site, Hanford, Idaho 
Flats, Oak Ridge, and all these things where we have waste 
coming out of the environmental management efforts there.
    They need to go somewhere, too. Vitrify it, put it 
somewhere for long-term, stable storage.
    I want to talk about V.C. Summer a little bit. One-half of 
all the new reactors under construction in the United States 
happen to be happening in South Carolina at V.C. Summer, and 7, 
8 years into the project, the rug gets pulled out from under 
and the construction stops.
    And, you know, I wonder how we as a nation will be able to 
go forward with nuclear power generation and new nuclear 
reactor construction after V.C. Summer.
    How are you going to incentivize investors to put that kind 
of money up and the tens of years that takes and the tens of 
billions of dollars in investment just for the permitting and 
licensing before you even get into the construction?
    How are you going to encourage investors to go that length, 
knowing that 7, 8 years into the investment, the rug could get 
pulled out from under them and they lose that investment?
    Now, they couldn't foresee the bankruptcy of Westinghouse 
and, you know, there were a lot of unforeseen things that kind 
of led into it, I guess.
    But I am concerned about the future of nuclear energy, and 
I will assume since you're all in NRC, you all support nuclear 
power production. Would that be a safe assumption?
    It's a yes-or-no question. Do you support nuclear power 
generation?
    Ms. Svinicki. Well, we have to maintain objectivity in our 
independent safety and security licensing determinations. But I 
would note, as a degreed nuclear engineer, I didn't choose to 
go into the field because I thought poorly of the technology.
    But that's not as a member of the Commission where, again, 
I have to step back from a view on advancing the nuclear power 
program or not. We have to be policy neutral on that.
    Mr. Duncan. So, Madam Chair, last year at V.C. Summer you 
all had a number of NRC staff assigned to that project. Do you 
remember how many were assigned?
    Ms. Svinicki. Well, the onsite presence was five inspectors 
who were at V.C. Summer full time. They were supported by both 
in our Atlanta Region 2 office by supplemental inspections.
    Our theory or our approach to having Georgia and South 
Carolina where the two projects were located is that out of our 
Atlanta base we could surge the deployment of the inspectors 
for the different expertise.
    So they kind of supported out of a common pool. I am told, 
though, that the resourcing overall was 40 full-time equivalent 
positions.
    Mr. Duncan. Right.
    Ms. Svinicki. So that would be kind of people on a 
fractional basis out of Atlanta and headquarters and the five 
at the site.
    Mr. Duncan. Right.
    So you have asked for an increase in the budget and the New 
Reactors office has significantly reduced workload, claims a 13 
percent reduction in staffing, and yet you ask for an increase 
of $4 million in funding.
    How do you explain that contradiction?
    Ms. Svinicki. Well, we could provide, I think, additional 
details for the record. But it would do with--as you note, 
there is a decline, such as the termination of the Summer 
project. But we do forecast that we will have increasing work 
on advanced reactors.
    We are very engaged with that community, and in FY '19 we 
may have first submittals for designs to review of advanced 
reactor concepts.
    Mr. Duncan. I guess for my constituents they look at half 
the reactors that were under construction in this country, the 
V.C. Summer and that project shut down. You had 40 people 
there, and they've got to be reassigned somewhere, maybe with 
NRC. I get that. But you're asking for an increase, going 
forward.
    I understand what you're saying about looking at future 
technologies. That leads into my next question.
    I am a strong advocate for small modular reactors. I've 
done a lot of research into molten salt reactors, and I hope 
those are the technologies that you're looking at because 
there's energy poverty in the world.
    U.S. could be a leader in this. Right now, we are getting 
our butts kicked by Russia in the construction of nuclear 
reactors around the globe.
    So I hope that new technologies do come online and you guys 
expedite the approval process of that, and we can get more 
nuclear production online.
    Ms. Svinicki. What I will just mention on molten salt 
technology is recognizing that we don't have a lot of experts 
conversant with some of these different reactor types.
    We recently worked with Oak Ridge to develop a training 
course that we brought in house at NRC. We sent 90 of our folks 
through that training on molten salt reactor technology, and I 
was pleased that the staff included not just scientists and 
engineers but also lawyers and others that will have to have 
some kind of conversant knowledge of these new technologies. So 
we are working very much on the capability.
    Mr. Duncan. OK. I thank you, Mr. Chairman. I yield back.
    Mr. Flores. Gentleman's time is expired.
    Mr. Carter, you're recognized for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. I apologize, bouncing 
back and forth. We had another subcommittee meeting at the same 
time.
    Madam Chair, if you don't mind, instead of butchering your 
name, can I just call you Madam Chair? Is that OK?
    Ms. Svinicki. That's fine, but I do have a mnemonic. I 
happen to be a vegetarian, and I did live in Idaho and my Idaho 
friends are OK with it. But if you think of the terms finicky, 
like a finicky eater----
    Mr. Carter. Finicky.
    Ms. Svinicki [continuing]. If you say Svinicki, and so 
that's kind of----
    Mr. Carter. Swinicki.
    Ms. Svinicki [continuing]. That's the best mnemonic I can 
think of.
    Mr. Carter. Swinicki?
    Ms. Svinicki. Svinicki, with----
    Mr. Carter. Finiski. I am from south Georgia. We talk in 
Geechee, so I'm--you know, I am just sorry. I----
    Ms. Svinicki. I don't think I am making it any better.
    Mr. Carter. I don't think so.
    Madam Chair, I want to talk about accident-tolerant nuclear 
reactor fuels. From what I understand, this is a game changer. 
Potentially, it could be, and it's something that I guess came 
out of the accident in Japan and through research they've come 
up with this.
    You know, I represent southeast Georgia near Plant Vogtle, 
where we are currently building the two reactors, and I am glad 
that they're following up on that and they've decided to 
complete that project instead of abandoning it.
    But at the same time, Southern Company just recently 
announced that at Plant Hatch, another nuclear facility near 
there, that they are actually going to be loading the lead test 
assemblies for what is known as the accident-tolerant fuels, or 
ATF, if you will, and that this was a first for the industry.
    So my question is, What do you think about them? Is this a 
potential game changer, the ATFs?
    Ms. Svinicki. Well, as you know, the loading of the lead 
test assemblies at Hatch is among the first in the Nation.
    We have some other proposals that we know utilities will be 
inserting assemblies, and accident-tolerant fuel is a generic 
term. There are various fuel vendors that are developing 
potential new fuels that fall under that heading. And this is 
the first step, is to collect the performance data from the 
lead test assemblies at Plant Hatch and other locations.
    If the concepts prove out and the materials perform as 
predicted, which, again, needs to be demonstrated, these fuels 
will have the ability to retain what we call source term and 
behave better in certain severe accident conditions.
    So you would have the potential for a diminished 
consequence off the reactor site should a low-probability 
accident occur. So that's the----
    Mr. Carter. So, potentially, it could be a game changer, 
potentially?
    Ms. Svinicki. It can be safety improvement.
    Mr. Carter. So let me ask you, is the NRC changing any of 
their licensing approach to be ready for this--for the use of 
this--for these fuels?
    Ms. Svinicki. Well, again, our regulations accommodate 
things such as lead test assemblies. Fuels have been developed 
and qualified in the past.
    So I think that we expect that that same framework can be 
utilized for the qualification of accident-tolerant fuels. 
It'll just be something that, if new issues emerge or there are 
materials that have unexpected behavior, we'll have to work 
closely with the applicants to understand their plans for 
resolving that.
    Mr. Carter. So you believe you could use existing DOE 
codes? You wouldn't have to come up with new codes?
    Ms. Svinicki. We are engaged with discussion in DOE to 
learn the codes and tools that they have and to see if those 
could be utilized for our confirmatory analysis.
    Mr. Carter. OK.
    Mr. Burns, Mr. Baran, thank you for having pronounceable 
names. But I wanted to ask you about Plant Vogtle.
    As you know, there's been a lot of problems down there, 
particularly in the permitting. And it's been such a drawn-out 
process that, you know, we've actually had--Toshiba and 
Westinghouse, you know, went bankrupt, went out of business as 
a result of this.
    And I just want to know what the NRC can do to speed up the 
permitting process. I mean, obviously, we all want safety, but 
at the same time, not all of the blame goes on NRC for the 
permitting process. But some of what they were concerned about 
was the permitting process and all the hoops that they had to 
jump through in order to get things permitted.
    Mr. Burns. Thank you, Congressman, for the question.
    The interesting thing is to reflect back on the licensing 
process used, which is essentially adopted as a reform proposal 
in the late 1980s, the Part 52 process.
    The advantages were enhanced standardization, so greater 
certainty. But the issue was in terms of some design changes 
and things as you went on, I think that's a lesson learned from 
it.
    I think one of the things we are working through with 
Southern now is on the conformatory items called ITAAC. These 
are those last, in effect, a checklist when you're getting 
ready for--toward operation, and in terms of how they can be 
consolidated.
    So, if anything, I think there are lessons learned there. I 
think we are trying to take those to heart. One of the things I 
would say too is going back, as you look at--you had a design 
that wasn't fully certified. While the applicant was coming in 
with the application for the license, they had to wait for 
Westinghouse to get through it.
    That's a little bit different than, I think, the 
expectation of how the process would work. But, again, where I 
think we have some learning on some of these things in terms of 
changed processes once the license is issued, and I think we 
are seeing some of that applied, particularly as we go into the 
advanced reactor technology because I would say----
    Mr. Carter. Well, I hope they're--as you say, I hope there 
were lessons that were learned because we don't want this 
happening again. We need nuclear energy.
    I am a proponent. I am an all-of-the-above and I believe 
this is clean fuel that we need, and we just need to learn our 
lessons from what was, obviously, you know, some serious 
mistakes that were made along the way.
    Thank you, Mr. Chairman. I yield back.
    Mr. Flores. Gentleman's time has expired.
    Seeing that there are no further Members wishing to ask 
questions of the first panel, I wish to thank all of our 
witnesses for being here today.
    Before we conclude, I would like to ask unanimous consent 
to submit the following documents for the record. There are 
none.
    Pursuant to committee rules, I remind Members that they 
have 10 business days to submit additional questions for the 
record, and I ask the witnesses to submit their response within 
10 business days following the receipt of the questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:27 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome to our hearing as we receive 
testimony from the three current NRC Commissioners. I thank you 
for taking the time to appear before the committee to discuss 
critical issues facing our Nation's nuclear industry.
    Located on the Columbia River upstream from my Oregon 
district sits the Columbia Nuclear Generating Station. In 2017, 
the Columbia power plant's exceptional high-performance was 
recognized with a prestigious ``Top Plant'' award from a 
leading industry publication.
    Recently, the plant performed continuously for nearly 2 
years from one refueling outage to the next and set a new 
monthly generation record in December by operating at a 104 
percent capacity factor--this means the plant generated more 
electricity than its expected output, because of how precise 
and efficient the system performed.
    In addition to the Columbia nuclear station, six nuclear 
technology startups are in the Pacific Northwest. This includes 
Oregon-based NuScale Power, which is leading the way in Small 
Modular Reactor technology, and Terrapower, a Bill Gates-owned 
nuclear technology company. Both of those companies are 
partnering with the Department of Energy's Idaho National 
Laboratory, which I toured last week.
    My visit to INL illustrated the vision and opportunity for 
America's nuclear innovators. The laboratory's nuclear 
scientists, in coordination with industry and academic 
partners, are developing new, safer nuclear fuels and the site 
is expected to host NuScale's first-of-a-kind SMR project.
    To fully capture the potential benefits of nuclear 
innovation, the NRC must be prepared to review, license and 
regulate these new technologies in a timely and efficient 
manner. The NRC plays a vital role in assuring our Nation's 
fleet of commercial nuclear power plants operate safely, 
overseeing the civilian use of nuclear materials in medicine 
and industrial applications, and managing the safe storage and 
ultimate disposal of nuclear waste.
    Technology is constantly changing in the world around us 
and we in Congress should facilitate and recognize how 
technology can improve the lives of our constituents. For 
example, this committee, led by my colleagues on both sides of 
the aisle, support the application of game-changing innovative 
technologies for automated vehicles. I am optimistic that a 
similar technology-focused approach for advanced nuclear energy 
will provide immense consumer and environmental benefits.
    However, to enable this innovation, the NRC must identify 
barriers that would inhibit our nuclear innovators. This is why 
I'm pleased with NRC's recent ``Innovation and Transformation'' 
initiative. As I noted in a recent letter with Subcommittee 
Chairmen Upton and Shimkus to Chairman Svinicki, this 
initiative is a great opportunity to rethink how the NRC 
approaches its mission and performs daily functions.
    I hope this initiative provides a fundamental examination 
of how new regulatory approaches can capture the benefits of 
new technologies, while preserving the same level of safety 
assurances. I look forward to hearing more about this 
initiative and what the Commission's vision is to further a 
culture change throughout the organization.
    For example, the development of advanced nuclear fuels and 
certifying the use of those fuels through advanced modeling and 
simulation would significantly increase safety margins at 
nuclear power plants.
    NuScale is an example of one of those innovative nuclear 
companies. NuScale's small modular reactor proposed design 
recently received approval for a significant milestone when the 
Nuclear Regulatory Commission signed off on the design's 
passive cooling system. This decision is a gamechanger for the 
regulatory framework and I applaud both NRC and NuScale on this 
breakthrough.
    I appreciate the Commission's leadership and interest in 
this licensing process. I am keenly interested in hearing more 
about the status of the staff's review, the Commission's 
resolution of outstanding policy issues process, and 
expectations for the completion of this process.
    The existing market and economic challenges for nuclear 
power are well known. But with a new generation of nuclear 
innovators enthusiastically tackling the big challenges, our 
nuclear future remains bright.





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
</pre></body></html>
